Department of Health and Human Services
        OFFICE OF
   INSPECTOR GENERAL




 CODING OF PHYSICIAN SERVICES
                      OFFICE OF INSPE~OR                 GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries seined by those programs. ‘l%k
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES

The OIGS Office of Audit Semites (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECITONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Philadelphia Regional Office, under the direction of Joy Quill,
Regional Inspector General and Robert A. Vito, Deputy Regional Inspector General.
Participating in this project were

REGION                                               HEADQuAR-
Robert A. Baiocco, F70ject Leader                    W. Mark Krushat, SC.D.

Donna M. Millan, Lead AnaZyst                        Wayne Powell, Bogram Specialist

Robert A. Katz

Daniel E. Brooks

Cynthia Hansford, Administrative Stajf


To obtain a copy of this repo~ call the PhiladelphiaRegional Of&eat (S(N))531-9562
Depatiment of Health and Human Services
        OFFICE OF
   INSPECTOR GENEML




 CODING OF PHYSICIAN SERVICES
             EXECUTIVE                         SUMMARY


PURPOSE

This report describes vulnerabilities in the maintenance, use, and management of the
Current Procedural Terminology Codes, Fourth Edition (CPT-4), as they relate to
Medicare reimbursements.

BACKGROUND

The Health Care Financing Administration’s (HCFA) Common Procedural Coding
System (HCPCS) is a three-part procedure labeling system used to identify services in
the Medicare Part B program. Current Procedural Terminology (CPT-4) codes
identify physician services and comprise the first level of HCPCS. The HCPCS also
identifies other sexvices such as ambulance services and durable medical equipment.
Since January 1992, HCFA has assigned a relative value unit (RVU) to each CPT-4
code to represent the resources that each service requires. The RVU is now used as
the basis to set reimbursements for health care providers. The reimbursement amount
for each code is contained in the Medicare Fee Schedule. In Fiscal Year 1991, HCFA
paid $36.2 billion for 867 million semices claimed under CPT-4.

The CPT-4 is a systematic listing of descriptive terms and identifying codes used to
describe the services of health care providers. It was developed by the American
Medical Association (AMA) in 1966. Now in its fourth edition, CPT-4 contains
approximately 7,000 codes, each in a five-digit numerical format. In February 1983,
HCFA incorporated CPT-4 into HCPCS.

METHODOLOGY

We reviewed both the CPT-4 system itself and HCFA’S management of the system as
they affect Medicare expenditures. We conducted this inspection in two phases. In
the initial phase, we gathered documentation. We first compiled 25 reports on CPT-4
related topics; most were issued by the Office of Inspector General. Other sources
included HCF~ the Physician Payment Review Commission, and the General
Accounting Office (GAO). We then contacted 41 medical specialty societies, 12
Medicare carriers, the AN@ the American Health Information Management
Association, the American Hospital Association, the Blue Cross Blue Shield
Association, and the Health Insurance Association of America. We asked each to
provide documentation concerning pertinent CPT-4 issues. We also obtained
additional material from an on-line search of a data base of medical journals. These
articles ranged from descriptions of studies with developed methodologies to
discussions of expert opinions. A companion report, A Compendium of Repotis and



                                           i
Literature on Coding of Physician Sewicm, 0EI-03-91-00921,   protidesadetaded
summary of each document.

In the next phase, we conducted structured interviews to refine the issues we had
developed. We interviewed representatives from each group previously contacted
except for GAO. In addition, we spoke to 23 coders and coding consultants. Our
range of respondents ensured a fair representation of professional opinions and
experience.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.

FINDINGS

Incorrect coding affects Medicare reimbursement and causes inequities in payment
under the Medicare Fee Schedule.

Flaws in CPTAI codes, guidelin~    and index ean lead to improper coding.

  .     Examples illustrating code flaws occur in most sections of CPT-4.

  .     Problems in CPT-4 guidelines and index also contribute to incorrect coding.

   .	   Some respondents have criticized the process that AMA uses to consider
        changes, additions, and deletions in CPT-4.

The AMA and HCFA have both taken some corrective measures to address coding
problems.

The methods by which HCFA has immrporated CPT-4 into Medicare’s coding system
do not ensure appropriate reimbursement to Medicare providers.

   .	   The HCFA has not developed criteria or communicated decision rules to the
        CPT-4 Editorial Panel for use in changing, adding, or deleting codes in light of
        the Medicare Fee Schedule’s requirements.

   .	   The HCFA has not adequately communicated       Medicare coding policy to
        providers.

   .	   The HCFA has not developed an efficient or effective process for establishing
        RWS for new or modified codes.

 A proliferation of CPT-4 changes will undermine HCFA’S ability to contain
 expenditures under the Medicare Fee Schedule.


                                            ii
RECOMMENDATIONS

We recommend that HCFk

       Produce and promulgate to the AMA and medical specialty societies clear
       coding objectives and criteria for Medicare’s resource-based payment system
       and encourage them to apply the objectives in the development of new or
       revised codes;

       Apply HCFA coding objectives and criteria when evaluating new or revised
       codes to assure compliance with the needs of the Medicare Fee Schedule;

       Work with the ~        Medicare carries, medical specialty societies and other
       related parties to develop a mechanism that assures a unified and consistent
       dissemination of guidelines on how to use and interpret codes.

       Evaluate the current process for implementing changes to the Medicare Fee
       Schedule. This includes: (1) developing an effective process for establishing
       work values for new or revised codes, (2) communicating to the AMA the
       number of annual additions, deletions, and revisions to CPT-4 that HCFA could
       effectively review, and (3) delaying implementation of new or revised codes,
       except for new technologies, until reliable data is available to predict service
       utilization.

We recommend that AM/k

  .	   Consider and encourage medical specialty use of HCFA coding objectives and
       criteria in the development of new or revised CPT-4 codes;

  .	   Consider a review of the CPT-4 index within the framework of its own
       commissioned study’s recommendations;

  .	   Work with HCFA to develop a mechanism that assures a unified and consistent
       dissemination of Medicare coding policy

  .    Provide HCFA with utilization estimates for new or revised codes; and

  .	   Work with HCFA to arrive at an acceptable number of annual CPT-4 code
       changes to allow for proper HCFA evaluation.

COMMENTS

The HCFA and AMA commented on the draft reports. The full text of their
comments appear in Appendix E. The HCFA concurred with the second and fourth


                                            ...
                                            111
recommendations and are considering the first and third. Although the AMA
expressed concern about the study methodology, they found all but recommendation
five to be fair and reasonable. The AMA does not believe that putting a “cap” on the
number of CPT-4 changes per year is in the best interest of the Medicare program, its
beneficiaries, or medicine.

We recognize the complex nature of the CPT system and commend HCFA and the
AMA for their willingness to take the necessary corrective actions to improve the
coding process and assure the successful implementation of the Medicare Fee
Schedule.




                                          iv
                    TABLE                   OF CONTENTS

                                                                                                              PAGE


EXECUTIVE       su-MMf=Y
                                                                                                                        1
lN’I’RODUmON           .................................................
                                                                                                                        4
FINDINGS      . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. . .. . .. . . . . . . . . . . . . . . .. .
                                                                                                                        4
 Incorrect coding affects Medicare reimbursements                       ........................
                                                                                                                           5
 Hawsin    CPT-4can       lead toimproperco&ng                  ............................

 The AMAand         HCFAhave          addressed some coding problems                    ................ 8

 Tke HCFAprocess           ofcode     development is flawed . . . . . . . . . . . . . . . . . . . . . . . 11

 An increase ofcodesundeties                   the Medicare Fee Schedde         . . . . . . . . . . . . . . . 14
                                                                                                            . 15
w~~A~ONS...””””O”O000OO                                        ““”O-” 00-””””””””””””””””””
                                                                                                                    . 17
 COMMENTS        . . . . . . . . . ...”””””””””””””              ““””””””””””””””””””””””””
                                                                                                                   ..19
 ENDNOTES         ..................................................

 APPENDICES

  AHCPCSDeveloped                &ound       CPT-4.       . . . . . . . . . . . . . . . . . . . . . . . . . . . . .. A-l
                                                                                                                   . B-1
  B: The CPTProcess            ...........................................
                                                                                                                   . c-1
  C   Data Sources . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

  D: Summa~of           OIGRepotison             CPT-4       . . . . . . . . . . . . . . . . . . . . . . . . . . . .. D-1

  E. HCFAand          WCommentsof                   Draft Repoti         . . . . . . . . . . . . . . . . . . . . . ..E-l
                         INTRODUCTION


PURPOSE

This report describes vulnerabilities in the maintenance, use, and management of the
Current Procedural Terminology Codes, Fourth Edition (CPT-4), as they relate to
Medicare reimbursements.

BACKGROUND

The HCFA Common Procedural Coding System (HCPCS), which includes CPT-4, is
used to identi& Medicare Part B seMces.

The Health Care Financing Administration’s (HCFA) Common Procedural Coding
System (HCPCS) is a three-part procedure labeling system used to identify services in
the Medicare Part B program. The HCFA developed HCPCS to achieve uniformity in
procedure coding (See Appendix A). The Current Procedural Terminology, Fourth
Edition (CPT-4) codes comprise the first level of HCPCS codes and were incorporated
into HCPCS in 1983. In addition to CPT-4 services, the HCPCS identifies other
services such as ambulance semices and durable medical equipment. 1 Hospitalsz use
CPT-4 to report outpatient sefices?

The American Medical Association developed and maintains the CIT.-4 coding system.

The CPT-4 is a systematic listing of descriptive terms and identifying codes used to
describe the services of health care providers$ The American Medical Association
(AMA) published the first edition of CPT in 1966. It consisted of 3,634 four-digit
numeric codes. The second edition, in 1970, expanded the codes to five digits. The
third edition, in 1973, introduced the modifier.5 In 1977, the current fourth edition
was published. By 1993, CPT-4 consisted of 6,925 codes and 26 two-digit numeric
modifiers. It is divided into six sections: Evaluation and Management, Anesthesia,
Surgery, Radiology, Pathology and Laboratory, and Medicine.

The CPT Editorial Panel, comprised of 146 physicians, governs the maintenance of
CPT-4. In 1977, periodic updates of CPT were introduced. Currently, the Editorial
Panel meets quarterly and decides whether to add, delete, or revise codes. Code
suggestions, typically, are channeled through national medical specialty societies’ that
act as intermediaries between the Editorial Panel and health care providers. These
societies assist in providing the necessary documentation to support the medical
necessity of code changes. Editorial Panel decisions may be appealed to the CPT
Executive Committee.8 (See Appendix B for an illustration of the code maintenance
process).



                                             1





                                                                             _—.
The HCFA assigns a Relative Value Unit (RVU) to each CFT-4 code to represent the
resouree that each service requires. The RW is also the basis for provider
reimbursement under the Medieare Fee Schedule.

Since January 1992, HCFA has assigned a relative value unit (RW) to each CPT-4
code to represent the resources that each service requires. The RW is divided into
three categories: physician work, practice expenses, and the cost of professional
malpractice insurance. It is used as the basis to set reimbursements for health care
providers. The reimbursement amount for each code is contained in the Medicare
Fee Schedule. Prior to the Fee Schedule, HCFA paid provider services on a
customa~-prevailing-reasonable    (CPR) charge basis. The Omnibus Budget
Reconciliation Act of 1989 began a process to replace the CPR mechanism and create
more equity and consistency in reimbursements.9 The HCFA initiated the Fee
Schedule in January 1992 and must fully implement it by 1996. Data developed by
Harvard University provided HCFA with the framework to develop RWS in the
initial Fee Schedule. The HCFA consulted with the AMA’s Relative Value Update
Committee (RUC) on the development of subsequent RWs.10

In fiscal year (FY) 1991, Medicare reimbursed $45 billion under HCPCS. The 867
million services paid under CPT-4 account for $36.2 billion or 80 percent of HCPCS
charges. In addition, 325 codes (approximately 5 percent) account for 80 percent of
CPT-4 reimbursements.

Three groups within HCFA govern the use of CPT-4.

Three groups within HCF~ the Bureau of Policy Development (BPD), the Bureau of
Program Operations (BPO), and the Office of Research and Demonstrations (ORD),
govern the use of CPT-4. The BPD establishes coverage and payment policy,
including the assignment of RWS. Currently, a BPD official from the Office of
Payment Policy represents HCFA on the CPT Editorial Panel. The BPO implements
coverage and payment policy and can issue guidelines to its contractors that differ
from CPT-4 if code definitions are unclear or contrary to its payment policy.ll The
ORD conducts studies to evaluate Medicare policy alternatives. The ORD contracted
with Harvard University to develop RWS for the Medicare Fee Schedule.

METHODOLOGY

We reviewed both the CPT-4 system itself and HCFA’S management of the system as
they affect Medicare expenditures. We conducted this inspection in two phases. In
the initial phase, we gathered 28 documents on CPT-4-related topics issued by
government agencies, most by the OIG. Other sources included HCF~ the Physician
Payment Review Commission (PPRC) and the General Accounting Office (GAO).

Next, we gathered other documented material.   To do this, we contacted 41 medical


                                          2

specialty societies, 12 Medicare carriers, the AN@ the American Health Information
Management Association (AHIMA), the American Hospital Association (AHA), the
Blue Cross Blue Shield Association (BCBSA), and the Health Insurance Association of
America (HIAA) (For a complete list of data sources, see Appendix C). We asked
each to provide any reports, newsletters, position statements, or other documented
material concerning pertinent CPT-4 issues. We also obtained published articles from
the computer files of the National Library of Medicine’s Medical Literature Analysis
and Retrieval System (MEDLARS). 12 These articles ranged from descriptions of
formal studies to discussions of expert opinions. Our research dated to back to 1985,
after the establishment of HCPCS. A companion report, A Compendium of Repotis
and Literature on Coding of Physician Services, OEI-03-91-00921, provides a detailed
summary of each document.

In the second phase, we conducted structured interviews to refine the issues we had
developed. To ensure a fair representation of professional opinions and experience,
we interviewed representatives from each group previously contacted.13 In addition,
we spoke to 23 individuals who currently code using CPT-4 or provide coding advice
on the use of CPT-4. We selected data sources in the following manner:

Government Agencies - We chose Federal agencies that regulate or monitor provider
activity under Medicare. In the U.S. Department of Health and Human Services,
there are HCFA and the OIG. The PPRC and GAO provide input to Congress.

Medicare Carn”ers - We stratified all Medicare carriers into three groups. Each
stratum represented a level of reimbursement activity in FY 1990: high, moderate, or
low. From each stratum, we selected five carriers. Since one carrier represented
three jurisdictions, the total number of carriers was 12. We chose this method to
ensure a fair representation of carrier activity.

Heahh Care Trade Groups - We included the AMA and the three groups represented
on the CPT Editorial Panel:   the M@     BCBS~     and HIAA.    The AHIMA14 also
provided information.

Medical Specialty Societies - We chose 41 groups to represent    practitioners who use
CPT-4 codes. They include 23 members of the Council of Medical Specialty
Societies 15 13 limited-licensedlG practitioner groups; and five major groups of
internal medicine.

Medical Record Codens - We chose 23 individuals who currently code using CPT-4 or
provide coding advice on the use of CPT-4. The AHIMA helped in providing 19. We
identified the other four through published articles.

This inspection was conducted in accordance with the Quality Standards for Inspections
issued by the President’s Council on Integrity and Efficiency.


                                            3

                               FINDINGS


INCORRECT CODING AFFECTS MEDICARE REIMBURSEMENT   AND
CAUSES INEQUITIES IN PAYMENT UNDER THE MEDICARE FEE
SCHEDU.

The Medicare program cannot pay providers a fair price for services they render to
Medicare beneficiaries without knowing what sewices were actually provided. The
primary mechanism by which physicians inform the program of the services they
provide is the CPT-4 system. Flaws in the CPT-4 system, or provider confusion
concerning the use of these codes, can lead to improper choices of codes to describe
services. Deliberate miscoding also occurs. Improper choice of codes will frequently
lead to improper reimbursement.

In previous reports, the OIG has identified improper coding practices which increased
annual Medicare expenditures by over $100 million (See Appendix D). “Upcoding,”
“unbundling,” and “fragmentation” were identified as the most common forms of
improper coding. Upcoding or code “creep” occurs when a provider bills for a
procedure more extensive or intensive than the one performed. Unbundling involves
billing for each component code of a larger, single comprehensive procedure code.
Fragmentation, another form of unbundling, allows the billing for incidental
procedures done as part of a larger procedure. The larger procedure code would
essentially include the definition of the smaller procedure(s).

Projections of the total scope and impact of improper coding vary. Based on prior
experience, software companies who specialize in identiijing improper coding practices
for private insurance companies estimate between 3 and 17 percent17 of all claims
are improperly coded. If we assume the coding practices are the same for both
Medicare and private claims, the impact could be significant. Based on FY 1991
expenditures of $36.2 billion, between $1 billion and $6 billion in Medicare claims may
have been affected. Another expert noted that health insurers overpaid $5.8 billion in
unnecessary claims in 1989 because of inaccurate coding. 18 In a 1991 report, Blue
Shield of California projected a 15 percent error rate in claims coding.19

In addition to improperly inflating Medicare costs, improper coding can contribute to
inequities in payment across provider specialties, possibly unclermining the intent of
physician payment reform. As the PPRC stated in its 1992 Annual Reuort to
Congress:

       Under the Medicare Fee Schedule, coding issues are extremely

       important because it is not possible to assure equitable payment under a

       national fee schedule unless each code represents a similar amount of

       work to all physicians who use it. In fact, coding is more important than

       previously because there are fewer variations in payment and no

       specialty differentials.n



                                           4
FLAWS IN CPT4 CODES, GUIDELINES, AND INDEX CAN LEAD TO
IMPROPER CODING.

We identified several examples of flaws in the CPT-4 codes, guidelines, and index that
we believe cause improper coding practices. Code problems include ambiguous code
definitions, multiple codes that define essentially the same procedure, and individual
codes that cover an array of significantly different levels of work effort. Specific
coding guidelines that appear at the beginning of each section are sometimes
ambiguous, particularly in addressing hospital outpatient services. These guidelines
define items that are necessa~ to appropriately interpret and report the procedures
contained in that section. The index, which seines as the starting point for code
selection, is poorly organized and often difficult to use.

These weaknesses within CPT-4 can impact users in several ways. Flawed CPT-4
codes give knowledgeable users the opportunity to wilfully miscode and cause
confusion for those with legitimate intentions. Providers can submit claims that
misrepresent semices, higher or lower, when codes do not accurately represent the
services performed. The problems with coding guidelines and the index compound
any already existing weaknesses in the codes.

Erumples ilhslruling code flaws occur   inmostsections   of   CPT-4

The following examples illustrate problems with specific CPT-4 codes. While no single

study contains a thorough analysis of the CPT-4 system, the following examples

identify problems in most sections of CPT-4.


Arnbi~uous code definitions


Examples in medical visit and consultation services, “arthroplasty” procedures, and

laboratory and radiology services illustrate this problem.


In the past, providers did not uniformly or accurately code the levels of service for

medical visits and consultations. 21 Variations in reporting these services were due to

coding practices, not patient characteristics or treatment practices. These coding

practices result from the ambiguity in definitions such as “brief’ or “limited.” One

report22 on consultation codes noted that 71 percent of respondents believed that

code definitions overlapped. This lack of clarity resulted in overpayments of an

estimated $73 million per year nationwide.     An article on the coding practices of

urologists in Connecticut found, on average, that urologists used one code 82 percent

of the time to record visit services. This concentration on one code did not represent

the normal distribution of actual practice patterns. The article attributed this coding

bias to the imprecise definitions of CPT-4 codes.z


Another article also noted that podiatrists and ortho aedic surgeons disagree on the

correct code to use for the “arthroplasty” procedure $ of the toe. Due to the “non-

specific CPT definitions,”% three codes, 28153, 28160, and 28285,X are all used.



                                              5-
Code 28285 has the highest RVU of the three codes and accounted for more

expenditures, $21.6 million in FY 1991, than the other two.


The OIG found that billers of laboratory services cannot bill individual tests under one

profile code because profile codes often do not adequately describe what they

encompass. 27 A profile is a package of individual tests commonly performed

together. As a result, profiles are subject to interpretation. Providers Can increase

their reimbursement by billing the individual tests instead of the profile.


In 1987, only 2 million laboratory services billed to Medicare were identified as

profiles. However, the OIG had projected that more than 55 million laboratory

semices should have been billed as profiles. At one carrier, providers who coded

multichannel laboratory tests% individually and not part of the lower profile caused

overpayments of $2.6 million over a 3 year period.


Radiology services (70010-79999) were also unbundled. Tests were coded individually

rather than as lower profile tests. An OIG report found this practice resulted in

overpayments of $1.3 million at one carrier.29


Multitie codes that define essentially the same Procedure


Examples in the Pathology and Laboratory and Surgery sections of CPT-4 illustrate

this phenomenon. Within the surgery section, we specifically target coronary artery

bypass graft (CABG) and arthroscopic procedures.


In the Pathology and Laboratory section (80002-83999), multiple procedure codes

defined essentially the same lab procedure. As new methods were introduced, more

procedure codes were added. Often these new codes were not significantly different

from current codes. Providers could increase reimbursement by choosing the code

with the highest payment.w


Currently, six codes (33510-33514, 33516) describe venous grafting in CABG surgery.

Each code represents the number of venous grafts performed. Before HCFA

mandated the use of CPT-4, many carriers listed only three codes for venous grafting.

One code identified grafting for a single artery, another for two grafts, and the third

for three or more grafts. An OIG study found that over 60 percent of surgeons

interviewed agree that the same payment for three or more grafts is appropriate since

the work effort for the additional grafts is relatively unchanged. In addition, 50

percent of surgeons did not object to the same payment regardless of the number of

grafts involved. Some surgeons believed that higher payments for additional grafts

encourage abuse. The OIG had suggested that AMA reduce the number of CABG

surgery codes from six to three. This would have saved an estimated $5 million

annually.31


Arthroscopic codes such as “meniscectomy,” “synovectomy,” “chondroplasty,”

“debridement,” “patellar shaving,” “patellar plasty,” and “lateral release” are closely



                                              6
related procedures. However, as one article noted, each has different reimbursement
implications and could lead to upcoding.32

Codes that cover an array of sijrnificantlv different levels of services

The CPT-4 codes that describe diagnostic vascular testing, “open needle” biopsy, and
‘fcraniotomy” procedures identi@ different levels of services.

Diagnostic vascular testing codes failed to distinguish between test types. k a result,
providers billed brief tests conducted with inexpensive, hand-held devices, with a code
(93910) valued for extensive tests with expensive equipment. The OIG believed the
brief tests should not have been billed separately but included in the office visit fee.
One report on “pocket dopplers”33 projected annual overpayments of $6 million.~
Another, on “zero crossers,”35 estimated annual Medicare savings of $16.7 million.%

The OIG also found that open needle biopsy procedures present coding challenges.
Until recently, there was no clear way to describe an “open needle” biopsy when
performed as part of a larger procedure. This procedure was miscoded under 47000­
“percutaneous needle,” or 47100 -“open wedge biopsy”37 along with the larger
procedure code. Open needle biopsies not part of a larger procedure are included in
the “laparotomy” procedure code (49000).

Four codes (61510, 61512, 61514, 61516)% describe supratentorial craniotomy, a
procedure that can take from one to 12 hours. 39 The codes differentiate the types of
lesion, but not the extent of work. A surgeon who performs the 12-hour craniotomy
fares worse financially than the one who takes one hour since there are no codes
which differentiate the levels of service.

l?obkms   in CPT-4 guidelines and iruk    also con/ni.bute to honed    coding.

Most respondents said that CPT-4 is well organized (primarily by organ groups) since

each section contains like services. However, some CPT-4 guidelines do not provide

sufficient detail to properly direct the coder. For example, confusion exists in coding

multiple procedures in terms of which procedure takes precedence. Terms such as

“simple,” “superficial,” and “deep or complicated” are also confusing. Without further

explanation, application of these terms may not be uniform.


The guidelines on hospital outpatient services appear to be a particular problem.

In November 1988, HCFA informed the CPT Editorial panel of its concerns in

applying CPT-4 to outpatient services. In a December 1992 position statement,

AHIMA states, “attempts to effectively use this (CPT-4) coding system for the hospital

setting have resulted in the inconsistent application of the CPT conventions and the

general guidelines.”


Problems with the index were also noted. An AMA-commissioned studya identified

several problems with the index. They include: too many reference points, e.g



                                              7
procedure, organ, conditio~ coder directed to a wide range of codes, not specific
enough; insufficient eponymic41 entries; codes in the index which have been deleted
from te~, procedures in text which were omitted from the index procedures not
clearly differentiated; limited cross referencing, poor use of common abbreviations;
and typographical errors. There are still concerns that AMA has not adequately
addressed the recommendations of its own study. According to a HCFA official and
some coders, the CPT-4 index is poorly organized and the descriptors are “short,
inconsistent, and incomplete.” Coders perceptions of the CPT-4 index maybe
influenced by the level of training and experience they have acquired using CPT-4 or
other coding systems.

Some respondents have dicized the process that AM     wes to consider dumgeq
additions, and dehxions in CPM.

Opinions on the AMA process of revising CPT-4 vary. While approximately 40
percent of respondents we surveyed expressed satisfaction with the current system of
addressing coding issues, an equal number were dissatisfied. Some respondents
believe the Editorial Panel does a good job in balancing requests for unnecessary
codes against those resulting from valid changes in medicine. Others used the terms
“hostile” and “closed-door” to express their sentiments.  Most coders believe they
should have a voice in the process because they can provide a valuable “user
perspective” on the application of codes. Half of carrier respondents also prefer to
have input before the AMA implements new codes. Opinions on the timeliness of
code changes were less divisive: 56 percent of providers expressed satisfaction while
only 24 percent were dissatisfied.

THE AMA AND HCFA HAVE BOTH TAKEN SOME CORRECTIVE
MEASURES TO ADDRESS CODING PROBLEMS.

Both HCFA and the AMA have taken corrective actions to address some of the
problems noted. The AMA has revised codes which identify medical visit and
consultation, pathology and laboratory, diagnostic vascular testing, and open needle
biopsy procedures. They have not, however, revised radiology, arthroplasty,
arthroscopic, and craniotomy procedure codes. Nor have they revised the CPT-4
guidelines. The HCFA has instituted pre- and postpayment reviews to identify claims
affected by improper coding. They have also studied several approaches to reduce
unnecessary codes.

l%e AA4X% corrective acths

The AMA has addressed several of the code problems previously identified. In 1991,

the AMA revised office visit codes to formulate the Evaluation and Management

section.42 Diagnostic vascular testing codes were amended to account for the

different levels of service. Code 47001 was added to identify an open needle biopsy

when performed as part of a larger procedure. In 1992, there were 945 changes in

Pathology and Laboratory codes (446 deletions, 233 additions and 266 revisions).



                                           8

These changes took effect on April 1, 1993. Also, the American College of Cardiology
(ACC) has petitioned the AMA to revise the cardiac catheterization codes in the
Medicine section to incorporate supervision and interpretation services.43

The AMA also added vignettes or clinical examples in the 1992 CPT-4 to assist in the
selection of Evaluation and Management codes. The 1993 CPT-4 contains 348
vignettes covering 29 medical specialties.

The AMA has taken steps to improve the CPT-4 maintenance process. The Editorial
Panel has grown from 12 to 14 members and the Adviso~ Panel has added
representatives of nine non-AMA specialty groups. A new standard form for
proposed coding changes should help establish uniformity in the application and
review processes. In 1990, the AMA introduced both the CPT Clearinghouse and
CPT Assistant “to help bring uniformity and clarity” in code application. The CPT
Clearinghouse, a phone bank used to field CPT-4 questions, estimates they field 5,000
questions each month. The CPT Assistant is a quarterly newsletter designed to
provide “accurate, up-to-date information regarding coding.”

Lastly, the AMA recognizes that CPT-4 contains flaws and encourages constructive
suggestions by all interested parties to address them. It is their goal to assure the
continual improvement of CPT-4.

%   HCFAh comdve       actions

The HCFA uses pre- and postpayment reviews to detect improper coding.a The
prepayment process involves the use of computerized screens to edit claims. These
edits are directed towards high-dollar, high-frequency services. In February 1991,
HCFA began Phase I of the “Correct Coding Initiative” (CCI). The CCI required
carriers to install edit screens. These screens detect secondary codes that are
components of larger primary procedure codes. When the edit identifies the primary
code, Medicare denies payment for the associated secondary codes. Phase I identified
68 primary codes. Phase 11,introduced in 1992, identified 251.45 The edits span all
six sections of the CPT-4 codes. Prior to the CCI, only a limited number of edit
screens were required for all carriers. In FY 1991, before all the edits were installed,
$4.6 billion was billed under 57 codes which would have been subject to edits.

All 12 carriers contacted have installed the CCI edit screens. Nine respondents
believe the screens will reduce unbundling significantly. Two mentioned the need for
more screens. Neither the OIG nor HCFA has evaluated the effectiveness of the CCI.
We are aware that some insurance companies use a far greater number of edits than
HCFA to detect improper coding practices in their non-Medicare claims. The HCFA
does permit carriers to use local edits that existed prior to 1992 for Medicare claims.
The HCFA believes that edits to detect rebundling are complex but is working with
the OIG to improve the prepayment screening process.




                                            9



                                                                                        .
The postpayment process involves a comprehensive medical review that identifies

potentially fraudulent or abusive practices. Postpayment reviews are expensive, with

one estimate placing the cost at $50 to review one claim.ti However, such reviews

have been successful in finding instances of “upcoding,” and can lead to the

development of prepayment edit screens.


The HCFA has targeted the utilization patterns of Evaluation and Management codes

as one postpayment review. Their aim is to assure that coding does not vary

significantly from expected norms. 47 Services under Evaluation and Management

codes account for over 70 percent of all Part B claims and represent 35 percent of

charges. Therefore, significant cost overruns could occur if providers code at levels

higher than expected. The HCFA intends these reviews to be purely “informational

and not burdensome.”~


Despite HCFA’S efforts, one recent article reported continued misuse of Evaluation

and Management codes. It cited HCFA estimates that doctors are using Evaluation

and Management codes correctly 60 percent of the time, while carriers report accuracy

rates ranging from 30 to 80 percent. 49 Providers not providing adequate

documentation to support their claims is the most common problem cited. While

some providers say they do not know what documentation the carrier requires, others

wait for the carrier to reject a claim before submitting the proper documentation.

Beyond that, there may also be a continuing ambiguity problem with the codes

themselves. For example, the decision-making complexity for code 99282 is low, for

99283 low to moderate?”


A PPRC-commissioned stud~l cited the opinions of 1,000 physicians concerning

Evaluation and Management codes. Although 67 percent of physicians adequately

understood how to use the new codes, only 11 percent believe the codes are very

accurate; while 54 percent thought they were somewhat accurate. The study also

noted that coding uniformity for Evaluation and Management semices has improved

despite the 33 percent of physicians who stated they did not know how to use the

codes. Lastly, 14 percent of physicians noted problems with coding Evaluation and

Management services when citing their concerns about the Medicare Fee Schedule.

For those who had problems, the most common were complexity and difficulty finding

a code that described the service provided. An ongoing OIG study is examining

HCFA’S implementation of the new visit codes.


The HCFA has explored other methods to reduce unnecessary Medicare

reimbursements.     Two alternatives include “packaging” and “collapsing.” Packaging

places various service components under a broad procedure code. For example,

under the “Laboratory Roll-In” (LRI)52 concept, office visits and lab sexvices would

be packaged under a broad visit code. The physician, not Medicare, would reimburse

the lab for its services. Under the current system, the provider bears no financial risk

when ordering diagnostic tests,53 and has no incentive to control unnecessary tests.

Collapsing reduces the number of similar CPT-4 codes, thereby limiting opportunities

to upcode by reducing the number of coding options.



                                            10
THE METHODS BY WHICH HCFA HAS INCORPORATED CPT-4 INTO
MEDICARE’S CODING SYSTEM DO NOT ENSURE APPROPRIATE
REIMBURSEMENT TO MEDICARE PROVIDERS.

We identified three flaws in the way that HCFA has incorporated CPT-4 into
Medicare’s coding system. We believe these flaws prevent HCFA from ensuring
appropriate payments to Medicare providers. First, HCFA has not developed criteria
or communicated decision rules for changing, adding or deleting codes in light of the
Medicare Fee Schedule’s requirements. Second, HCFA has not adequately
communicated Medicare policy to providers. Third, HCFA has not assessed the
effectiveness of the process for establishing RVUS.

The HCFA has not dkveloped crderia or comnunic ated decision rules for changing
adding or deleting cdes in @#t of the Mx&xme Fee Schedhkk re@mmWs

The HCFA does not have criteria to evaluate the effectiveness of CPT-4 codes in
meeting the needs and intent of the Medicare Fee Schedule. Criteria would provide
HCF~ the ~         and medical specialty societies a tool to evaluate the adequaq of
each code and its descriptor and allow for consistent development of CPT-4. While
the AMA has coding guidelines, HCFA has not determined whether they are
compatible with the goals of the Fee Schedule.

In addition to AMA guidelines, the PPRC published a set of goals to guide the
development of visit codes?4 A partial listing of these goals illustrate an example of
coding criteria. The PPRC believe that visit codes should be (1) clear and interpreted
uniformly by all providers, payers, and beneficiaries, (2) clinically meaningful and
describe clearly differentiated services, and (3) facilitate the assignment of accurate
and equitable resource-based relative values.

In its 1992 Annual Reuort to Corwress, the PPRC stated:

       Adoption of a resource-based payment system places new requirements
       on the coding system because, to provide a sound basis for equitable
       payment, each code must represent a similar amount of work to all
       providers who use it. Although coding decisions remain external to the
       payment process for the most part, HCFA is in a good position to
       articulate the needs for coding changes.55

In its 1993 Annual Report to Congress, PPRC reiterated its concerns and made more
specific recommendations to HCFA. It recommended that:

       HCFA should continue to develop small-group processes to update the
       fee schedule for new codes and to conduct the periodic review of the
       entire fee schedule. The processes should be developed with public
       input, and clear guidelines and decision rules should be specified in
       advance. The processes should include (1) mechanisms to promote


                                           11
      consistent decision making, (2) fair methods and representation of
      involved parties, (3) a means to identify overvalued as well as
      undemalued services, ways to ensure public accountability, and (4)
      feedback to the CPT Editorial Panel when codes need revision to
      achieve accurate resource-based payment.5b

  �   T%eHCFA has not adequately communicated Medicare coding policy to pmvidh

Continued provider confusion about proper use of CPT-4 codes indicates that HCFA
has not adequately communicated Medicare coding policies to providers. In its 1993
Annual ReDort to Con~ess, PPRC stated, “many physicians reported they did not
understand major aspects of payment reform, such as the newly revised visit
codes...and Medicare’s global surgical service policies.”s’

Clear and accurate coding advice would ensure uniform application of Medicare’s
reimbursement policies. We found that the AMA and medical specialty societies, not
HCFA or Medicare carriers, are the primary source for coding advice. This would not
be a concern if the advice given by the other sources were consistent with Medicare’s
policies. However, the likelihood of inconsistent advice only increases as the number
of sources increase. Coding consultants are another source of coding advice. A new
cottage industry of companies which advertise their ability to maximize provider
reimbursements, both Medicare and non-Medicare, has also found a market for their
semices. The following table lists both the source of coding information and the
percentage of respondents who cited their use.

Table 1.
              SOURCESOF CODINGINFORMATION
                                       FORPROVIDERS
                                                  ANDCODERS



                SOURCSS   OF INFORMATION                 �   Pr.vlder� Coder
                          Colleague
                      �Consultants

                  CPTClearinghouse
                      CPTAssistant
                             CPT-4
                               HCFA
                  Medical Spec. Sot.
                   Medicare Carrier
                                           o%      20%         40%         60%              80Z   100%
                                                   HoW OFTSN EACli SOURCE         1S CONTACTSD




                                �lndividuti8
                                         c.r.rstix.ti.~wthat   provids   coding    ndnce.




                                                     12

Two factors may contribute to limited reliance on HCFA and Medicare carriers for
coding advice. First, HCFA lacks a cohesive approach for addressing coding
questions. The BPD’s Office of Coverage Eligibility Policy, Medical Coding Policy
Staff, forward most CPT-4 questions directly to the AMA. The BPO, however, works
with HCFA’S representative on the CPT Editorial Panel to resolve coding inquires.
Since, HCFA has not assigned staff to specifically address CPT-4 coding questions,
these questions are resolved differently depending on to whom they are addressed.

Second, providers and coders have not been satisfied with carrier responses.
Approximately 60 percent of providers and 40 percent of coders expressed some
frustration in their dealings with Medicare carriers. Problems include: inconsistent
coding advice; non-uniform coding policy, especially concerning modifiers and “Not
Otherwise Covered” codes; lack of knowledge in some specialties; difficulty in
resolving coding conflicts; and lack of timeliness in responding to changes in medicine.
All but one carrier respondent estimate that they receive less than 50 calls per month
concerning CPT-4 questions. Two carriers, in fac$ said they forward CPT-4 questions
directly to the AMA. The other ten will resolve the questions themselves. If they
cannot, most will also use outside sources.

The HCFA has not developed an #kient      or @ective process for establkhing RVUS for
newormdijied  codes.

Although the process for assigning RVUS is still evolving, both HCFA and the PPRC

have questioned the effectiveness of the current process and made suggestions for

modifying the process. However, no evaluation of the process has been undertaken,

even on an interim basis.


The RW assignment process has already undergone some changes. In developing

the initial set of values for the 1992 Medicare Fee Schedule, HCFA relied primarily

on data from Harvard University. For new values in the 1993 Fee Schedule, HCFA

considered recommendations from AMA’s Relative Value Update Committee (RUC).

Recommendations from RUC will also serve as the basis for changes in the 1994 Fee

Schedule.


The RUC recommendations are reviewed by HCFA staff and a panel of Carrier

Medical Directors (CMD), then published in the Federal Register for comment.

Comments on RWS published in November 1991 and November 1992 were

reviewed by a panel of CMDS and medical specialty society representatives. In 1993,

HCFA rejected 35 percent of the RUC’S recommendations.


Concerns expressed by HCFA and the PPRC indicate that an early assessment of the

RW development process maybe warranted.


  .	   The RUC is not following HCFA’S methodology for assigning RWS, and may
       be incorrectly assigning values to new codes that are split from another code.



                                            13

  �	        The current RUC process does not project utilization for new and revised
            codes. These projections are needed to assure that changes to the Fee
            Schedule do not adversely affect the requirement for budget neutrality.

  �	        There is no public oversight of the process itself. The                                                               PPRC has recommended
            publishing and allowing public comment on processes                                                                  and decision rules;
            soliciting input from all interested parties, particularly                                                           non-Medicare payers and
            consumers; and public review of the process to assure                                                                 compliance with decision
            rules.

our own analysis indicates that these concerns raise questions about the effectiveness
of the process as it currently operates. An early assessment could result in
modifications designed to improve the overall effectiveness of the process.

A proliferation of CPT-4 changes will undermine HCFA’S ability to contain
expenditures under the Medicare Fee Schedule.

We believe that significant increases in code changes will severely stretch HCFA’S
already limited resources to the point where they will be unable to effectively
implement and manage the Medicare Fee Schedule. As shown in the following table,
there has been a dramatic increase in the volume of annual changes to CPT-4. This
increase has coincided with the advent of the Medicare Fee Schedule in January 1992.
Until the Fee Schedule is fully implemented in 1996, we believe the volume of code
changes will be at or above 1991/1992 levels. Entire sections of CPT-4 are now being
revised and proposals are pending to split a large number of individual codes into two
or more codes.

Table Z                               [1                                                                                I
                                           CODE       CHANGES                  IN    THE         CPT–4             MANUAL
                                                                         ~1986–1992)*


                                                                �   Additionsa Deletions~Revisi.ns




                              1,000 “..’,
                                800      v - I
                                                   S43? . . ..ia     .. . . . . . . . . . . . . . . . . . . . . .




                                       1986                198?         19’88 1989 1990 1991 1992”’
                                    ] 201 I
                             Additions                      272 I        70 I 150 I 136 I 235 I 406
                             Deiotioms
                                    \ 157                   147          43    203    72   339 575
                                    I
                             Revisioa@309   I               161 I        118 I 199 I 181 I 252 I 544

       �    Annual   changes      � re  published     in   th.t ye.r+s
                                                                     follc.wirt,         CPT-4         manual.
       �*   sixt~percent       � re  due to ch. n~es       in     Patholo{y    �nd Laboratory           codes.   These    ser~ices    � re relmbur=ed
       under    � clinical     di. tncmtic    I.beratory        fee schedule     but   sti[l   rqUIM        �n   ev.lu.   tion  by   HCFA ntaff.




                                                                                       14 ‘
For each CPT-4 code, HCFA must assign an accurate work value and estimate service
utilization to project future expenditures. Section 1848(c)(2)(B) of the Social Security
Act also requires that changes to the Medicare Fee Schedule have a budget neutral
effect on these expenditures. 58 This evaluation process has already had a significant
impact. According to HCF~ its adjustments in 1992 of RWS for new and revised
codes avoided an increase in expenditures of $30 million in 1993. However, an
increased workload for HCFA staff reduces their effectiveness in performing this
necessary evaluation.

Lastly, we are also concerned about the nature of recent code changes. The HCFA
has expressed a concern that many of the CPT-4 code changes “appear to be an
opportunity to revalue work RWS through a process outside of our usual notice and
comment rulemaking process.” We believe that any effort to circumvent the intent of
the Medicare Fee Schedule could undermine physician payment reform and should be
addressed.




                                           15

                  RECOMMENDATIONS


Our findings indicate that additional improvements could be made with the CPT-4
codes and in HCFA’S management and articulation of Medicare policy. To this end,
we make recommendations to HCF~ which develops and implements Medicare
policy, and the ~      who has developed and maintains CPT-4.

We recommend that HCFA

      Produce and promulgate to the AMA and medical specialty societies clear
      coding objectives and criteria for Medicare’s resource-based payment system
      and encourage them to apply the objectives in the development of new or
      revised codes;

      Apply HCFA coding objectives and criteria when evaluating new or revised
      codes to assure compliance with the needs of the Medicare Fee Schedule;

      Work with the ~        Medicare carriers, medical specialty societies and other
      related parties to develop a mechanism that assures a unified and consistent
      dissemination of guidelines on how to use and interpret codes.

      Evaluate the current process for implementing changes to the Medicare Fee
      Schedule. This includes: (1) developing an e~ective process for establishing
      work values for new or revised codes, (2) communicating to the AMA the
      number of annual additions, deletions, and revisions to CPT-4 that HCFA could
      effectively review, and (3) delaying implementation of new or revised codes,
      except for new technologies, until reliable data is available to predict service
      utilization.

We recommend that Ah@ to the extent that they do not conflict with Federal
antitrust guideline

       Consider and encourage medical specialty use of HCFA coding objectives and
       criteria in the development of new or revised CPT-4 codes;

       Consider a review of the CPT-4 index within the framework of its own
       commissioned study’s recommendations;

       Work with HCFA to develop a mechanism that assures a unified and consistent
       dissemination of Medicare coding poli~,

       Provide HCFA with utilization estimates for new or revised codes; and

       Work with HCFA to arrive at an acceptable number of annual CPT-4 code
       changes to allow for proper HCFA evaluation.


                                           16
                             COMMENTS


Both HCFAand the~generally        agreed tithom  recommendations.   Their
comments and our responses are summarized below. A complete version of the
comments appears in Appendix E. Changes were made to the draft report to
incorporate some of the HCFA and AMA remarks.

17CFA Conuwnis

The HCFA comments focused on the report recommendations.        They generally
concurred with our recommendations and have begun to take action. With respect to
our first recommendation, HCFA is considering developing a policy statement to
delineate clear coding and objectives and criteria to the AMA for Medicare’s resource-
based payment system. They plan to evaluate whether such a policy statement would
improve coding accuracy.

The HCFA concurred with our second recommendation to apply its coding objectives
when evaluating new or revised codes and recognize that improvements can be made
in the coding process. They believe, however, that the OIG should balance its report
by citing HCFA’S major role in the development of the new evaluation and
management codes and clinical examples. The HCFA feels that these new codes
“have led to greater uniformity” in coding practices.

The HCFA agreed in principle with our third recommendation that greater guidance
to physicians on the use and interpretation of codes is needed. However, they were
reluctant to commit to a specific set of actions, and would like to study this issue
further. The HCFA feels their work in communicating the changes in evaluation and
management codes to the medical community was highly successful and should be
recognized. Additionally, HCFA believes the OIG should also highlight their
continued cooperation with Medicare carriers and the AMA in identifying and
addressing coding issues.

The HCFA concurred with our fourth recommendation to evaluate the current
process for implementing changes to the Medicare Fee Schedule and has taken
significant action. These changes should allow HCFA to set values that ensure that the
integrity of Medicare Fee Schedule is maintained. These changes were detailed in
HCFA’S Notice of Proposed Rule Making, “Medicare Program: Revisions to Payment
Policies Under the Physician Fee Schedule,” that appeared on pages 37996 and 37997
of the July 14, 1993 Federal Register.

OIG Response

We commend HCFA for strengthening its process for implementing new codes and
their associated values. We believe these actions are significant and facilitates an
orderly implementation of the Medicare Fee Schedule.


                                           17
We continue to believe that HCFA needs clear coding objectives to support the intent
of the Medicare Fee Schedule and urge HCFA to share those objectives with the
AMA. We also hope that HCFA will continue to work with the ~               Medicare
carriers, medical specialty societies, and other related parties to develop a policy for
improving coordination of coding policy.

m?AMA     Comments

The AM_& with one exception, agreed with the recommendations.          They stressed the

importance of working with HCFA and all affected parties to strengthen the CPT

system. They strongly disagreed that HCFA should delay implementation of new

codes pending the availability of reliable utilization data. They feel the best approach

is to work with HCFA to “proactively manage” code changes. They also note that a

recently revised process for submitting code changes should provide the best possible

utilization estimates.


The AMA believes, however, that our methodology         has limitations. They feel the

literature was scarce, not found in publications with   high standards of peer review, and

not suited to generalization. The AMA also believe       too much emphasis was placed on

the comments from the structured interview process       which may be flawed due to the

bias of some respondents.


The AMA did not dispute the primary finding that “incorrect coding affects Medicare

reimbursements” but questioned several others. However, they believe the reports

wrongly suggests that incorrect coding is inherently the fault of the CPT system and

only leads to Medicare overpayments, not underpayment.        They feel it is possible that

“flaws in the CPT codes, guidelines, and index can lead to improper coding” and are

seeking improvements to address these concerns. Nevertheless, they did not agree

that the examples provided are “necessarily indicative...and, in most cases, no longer

apply.” Lastly, the AMA questioned our assessment of process of developing codes,

their values and the ultimate impact on Medicare reimbursements.       They believe these

issues are “quite complex...and are continuing to explore.”


OIG Response


We recognize the complex nature of the CPT system and commend the AMA for

their work to make the necessary improvements when needed. We did not intend this

study to be the final word, but the opening of a dialogue that will lead to

improvements in code development and assignment of their associated work values.





                                             18

1. Section 4501 of the Medicare Carrier Manual states that tivel II contains
alphanumeric (A-V) codes which cover physician and non-physician services not
included in CPT-4. They are maintained jointly by HCF~ the Blue Cross and Blue
Shield Association, and the Health Insurance Association of America. Level III
contains local alphanumeric (W-Z) codes needed by HCFA contractors for services
not previously covered.

2. Section 3627.8 of the Medicare Intermediam Manual states this term applies to
acute care hospitals, long-term care hospitals, rehabilitation hospitals, psychiatric
hospitals and hospital based Rural Health Clinics (RHCS). It does not apply to
independent RHCS, hospital based or independent End Stage Renal Disease facilities,
Skilled Nursing Facilities, Home Health Agencies, Comprehensive Outpatient
Rehabilitation Facilities, Outpatient Physician Therapy facilities, hospices or Christian
Science Sanitoria.

3. Section 3626.4 of the Medicare Intermediary Manual requires hospitals to use the
CPT-4 portion of HCPCS to report significant outpatient surgical procedures (clinical
diagnostic lab services had been and continue to be coded using HCPCS. Significant
surgery is defined as incision, excision, amputation, introduction, repair, destruction,
endoscopy, suture or manipulation).

4. “Provider” in this report represents both physicians and non-physicians. Section
1861(r\ of the Social Securitv Act states the term “physician’’,...means (1) a doctor of
medicine or osteopathy legally authorized to practice medicine and surgery by the
State..,(2) a doctor of dental surgery or of dental medicine who is legally authorized to
practice dentistry by the State, (3) a doctor of podiatric medicine...but ordy with
respect to functions which he is legally authorized to perform as such by the State...(4)
a doctor of optometry, but only with respect to...items or services...which he is legally
authorized to perform.,.by the State (5) a chiropractor is licensed as such by the State.

5. A modifier indicates that the service or procedure has been altered by some specific
circumstance. It does not change, but enhances, the code and its definition. Modifiers
can be used in two-digit or five-digit forms. A modified procedure can be reported by
either adding the two-digit modifier to the original five-digit code or using the five-digit
modifier in addition to the original code. For example, under certain circumstances a
service or procedure is partially reduced or eliminated at the physician’s election. This
can be reported by adding the two-digit modifier -52 or using the five-digit code 09952
in addition to the original procedure code.

6. The AMA nominates 10 members to the Editorial Panel. The Blue Cross and Blue
Shield Association, the Health Insurance Association of America, the American
Hospital Association, and the Health Care Financing Administration nominate the
remaining four members from their own ranks.

7. There are 85 national medical specialty societies involved in maintenance of CPT-4.
The CPT Advisory Committee (CAC) represent 76 groups from the AMA’s House of



                                             19



                                                                        —       .—             —
Delegates. The Health Care Professionals Advisory Committee for CPT (HCPAC)
represents nine non-AMA groups who use CPT-4.

8. The Executive Committee of the CPT Editorial Panel includes the chairman, vice
chairman and three other members selected by the entire Editorial Panel. One
member must be a third-party payor representative.    Currently, HCFA’S representative
to the Editorial Panel serves on its Executive Committee.

9. Commerce Clearing House, Inc., Commerce Clearirw House Medicare and
Medicaid Guide Extra Edition with an explanation by Gail R. Wilensky, Ph.D.
(Chicago: Commerce Clearing House, 1991).

10. The AMA’s Relative Value Update Committee (RUC) provides HCFA with
recommendations for RVUS to accompany new or revised CPT-4 codes. The RUC is
composed of one representative each from 22 medical specialty societies, the
American Medical Association, the American Osteopathic Association and the CPT
Editorial Panel. There is also a non-voting HCFA representative on the RUC.
However, HCFA does have veto power over RUC recommendations.

11. In its comments to the Office of Inspector General’s report Liver Biomies (OEI-
12-88-00900), HCFA states “. . . as of January 1, 1992, HCFA has the authority to
establish uniform national definitions of services, codes to represent services, and
payment modifiers to the codes. Therefore, HCFA can issue guidelines that are
different from those in the CPT-4 manual. To the extent that instructions in the CPT-
4 manual are unclear or are contrary to payment policy associated with physician
payment reform rules, HCFA will issue guidelines that will supersede any CPT-4
manual instructions. In order to ensure uniform payment policy, HCFA will annually
issue a Medicare Fee Schedule data base tape which will include payment policy
indicators for each code to the carriers.”

12. The MEDLARS allows access to a data base of medical journals in its MEDLINE
subfile. The MEDLINE contains more than 20 years of data tiom over 3,000 major
medical journals.

13. We did not interview a representative   from the General Accounting Office since
they do not use CPT-4.

14. The American Health Information Management Association is the professional
health care organization of nearly 34,000 credentialed specialists in the field of health
information management. Primarily, they collect, analyze, and manage beneficiary
health care records. They were formerly know as the American Medical Records
Association.

15. The Council of Medical Specialty Societies is an educational and scientific
organization. Each of its members have examining boards recognized by voting
membership in the American Board of Medical Specialties.



                                            20

16. Section 1861(r) of the Social Securitv Act defines “physician” as it is used in the
Medicare program. A “physician” includes both full and limited-licensed practitioners.
A limited-licensed practitioner may only practice on specific portions of the body.
Examples include podiatrists or optometrists.

17. National Medical Audit, a San Francisco-based division of benefits consultants
Mercer Meidinger Hansen, Inc. estimate that 12 to 15 percent of all physician billing
involves gaming or overcharging; Robert D. Hertenstein, M,D., a surgeon and medical
director for Caterpillar Inc., worked with Health Payment Review, Inc. to develop the
“CodeReview” software. He estimates nine to 17 percent in savings. Gabrieli Medical
Information Systems, Inc., a Malvem, PA software firm claims it can save 3 percent to
5 percent on the total benefit dollars paid out or one to five dollars per claim.

18. Nancy Coe Bailey, “How to Control Overcharging by Physicians;’ Business and
Health (August 1990): 13-14.

19. Sophia W. Chang and Harold S. Luft, “Reimbursements and the Dynamics of
Surgical Procedure Innovation,” Medical Innovation at the Crossroads--Volume 11:
The Chanting Economics of Medical Technology Edited by Annetine C. Gelijns and
Ethan A. Halm. (Washington, D.C.: National Academy Press, 1991), 108.

20.	 Physician Payment Review Commission,         Annual Report to Comzress
(Washington, D.C.: GPO, 1992), 46.

21. Health Care Financing Administration, Medical Visits to Medicare Patients:
Phvsician Codirw Practices by Sally Trude ([Washington, D.C.]: U.S. Department of
Health and Human Services, Health Care Financing Administration, Contract Number
99-C-98489/O-08, 1992), 41, and Office of Inspector General, Problems with Codirw of
Phvsician Services: Medicare Part B (OAI-04-88-00700) ([Washington, D.C.]: U.S.
Department of Health and Human Services, Office of Inspector General, 1989), 4-6.

22. Office of Inspector General, Medicare Phvsician Consultation Services (OAI-02-
88-00650) ([Washington, D.C.]: U.S. Department of Health and Human Services,
Office of Inspector General, 1988), 9.

23. Peter Albertson, M.D. and Edward A. Kamens, M.D., “Variations in Coding
Practices Among Connecticut Urologists for the Medicare Population,” Connecticut
Medicine (September 1990): 508-511.

 24. An example of an “arthroplasty” procedure would be the removal of the head of
 the proximal phalanx in the second toe to straighten the toe and relieve a painful
 dorsal hyperkeratosis.

 25. The Podiatric Medicare Monthly (Winter 1993): 2-4.

 26.28153-   Resection, head of phalanx,.   28160- l-kmiphakmg@Omy or




                                            21

interphalangeal joint excision, toe, single, each. 28285- Hammertoe     operation; one
toe (e.g., interphalangeal fusion, fellating, phalangectomy).

27. Office of Inspector General, Ensurirw Amxomiate Use of Laboratory Sefices: A
MonomaPh (OEI-05-89-89150) ([Washington, D.C.]: U.S. Department of Health and
Human Services, Office of Inspector General, 1987), 8.

28. Office of Inspector General, Review of Multichannel Laboratory Claims Processed
bv Emuire Blue Cross Blue Shield Under Title XVII of the Social Securitv Act (A-02-
85-02030, A-02-86-02013, A-O2-87-O1O26,A-O2-88-O1OO1) ([Washington, D.C.]: U.S.
Department of Health and Human Semites, Office of Inspector General, 1985, 1986,
1987, 1988).

29. Office of Inspector General, Review of Radioloirv Services Paid by Empire Blue
Cross Blue Shield Under Title XVIII of the Social Securitv Act (A-02-86-62022)
([Washington, D.C.]: U.S. Department of Health and Human Semites, Office of
Inspector General, 1987), 2-4.

30. Office of Inspector General, Ensurin~ Atmromiate       Use of Laboratory Services:

A Monograph (OEI-05-89-89150), 8-9.


31. Office of Inspector General, Corona ry Arterv Bvuass Graft Sunzery (OAI-09-86-

00070) ([Washington, D.C.]: U.S. Department of Health and Human Services, Office

of Inspector General, 1987), 20.


32. Chang and Luft, “Reimbursements      and the Dynamics of Surgical Procedure

Innovation,” 108.


33. A “pocket doppler” is an inexpensive screening device used for in-office ultrasound

tests of arteries and veins.


34. Office of Inspector General, Pocket Dotmlers: A Mana~ement Advisory Report

(OEI-03-91-00401) ([Washington, D.C.]: U.S. Department of Health and Human

Services, Office of Inspector General, 1991), 3.


35. “Zero crossers are ultrasonic testing devices used for in-office diagnostic tests of

arteries and veins. They are a technological step above “pocket dopplers.”


36.	 Office of Inspector General, Zero-Crossers (OEI-03-91-00460)

([Washington, D.C.]: U.S. Department of Health and Human Services, Office of

Inspector General, 1991), 7.


37. Office of Inspector General, Liver Biomies (OEI-12-88-00901) ([Washington,

D.C.]: U.S. Department of Health and Human Services, Office of Inspector General),

1992), 4.





                                            22



                                                                —
38.61510     Craniectomy, trephination, bone flap craniotom~ for excision of brain
             tumor, supratentorial, except meningioma.
   61512     . . . ; for excision of meningioma, supratentorial.
   61514     . . . ; for excision of brain abscess, supratentorial.
   61516     . . . ; for excision or fenestration of cyst, supratentorial.

39. Chang and Luft, “Reimbursements     and the Dynamics of Surgical Procedure
Innovation,” 107.

40. Coopers and Lybrand, Cost-Benefit Analvsis of a Uniform Procedural Coding
Svstem for Phvsician Semites (American Medical Association: Privately commissioned
and published, 1989), 36-40.

41. An eponym identifies the name of an individual who is most closely associated with
a procedure, e.g, “McBride procedure” (28292).

42. Evaluation and Management (E/M) codes are used to identify office services;
hospital observation services; hospital inpatient sewices; consultations; emergency
department services; critical care sefices; neonatal intensive care; nursing facility
services; domiciliary, rest home, or custodial care services; home services; case
management services; and preventative medicine services. Each group contains
several levels, usually three or five, which describe the nature of the patient and the
level of service. There are 99 E/M codes in the 1993 CpT-4.

43. Cardiologists have traditionally used 90000 series codes to prevent the codes from
labeling them as radiologists. Currently, HCFA states that radiology codes (75000
series) should be used along with cardiology codes to ensure complete reimbursement
for cardiac catheterization services.

44. Section 1842(a)(2)(B) of the Social Securitv Act requires HC’FA to apply
‘(safeguards against unnecessary utilization of services furnished by providers.”   These
safeguards come k the form of both pre- and postpayment reviews.

45. Billing a total abdominal hysterectomy (51840) along with its component parts was
cited an example of a gaming practice. One of the edits under the CCI address this
problem.

46. Coe Bailey, “How to Control Overcharging by Physicians,” 14.

47. Dennis L. Olmstead, “Medicare Monitoring of Payment Reform,”          Pennsylvania
Medicine (March 1992), 16-17.

48. “RBRVS Briefs,” Texas Medicine       (March 1992), 58.

49. Carol Stevens, “Coping with Payment Reform: Avoiding the Most Common
Mistakes,” Medical Economics, 19 October 1992, 102.




                                            23

50. Marleeta Jones, ART, ’’RBRVS IS Still Evolving: Seven Issues of Interest to
Physicians and Health Information Professionals,” Joumalof AHIMA63 (September
1992) 44-45.

51. Physician Payment Review Commission, Annual Report to Congress       (Washington,
D.C.: GPO, 1993), 110-115.

52. Office of Inspector General, Ensurirw Atm romiate Use of Laboratory Services: A
MonomaDh (OEI-05-89-89150), 14.

53. Health Care Financing Administration, Packating Phvsician Services: Alternative
Approaches to Medicare Part B Reimbursement by Janet B. Mitchell Ph.D. (HCFA
Contract number 500-81-0054) ([Washington, D.C.]: U.S. Department of Health and
Human Setices, Health Care Financing Administration, 1987).

54. Physician Payment Review Commission, Sumey of Visits and Consultations:
1991-1, 78

55. Physician Payment Review Commission, Annual Report to Corvzress: 1992, 47.

56.	 Physician Payment Review Commission, Annual Re~ort to Comress:        1993, 195-
199.

57. Physician Payment Review Commission, Annual Report to Comzress: 1993, 110.

58. Under Section 1848(c)(2)(B) of the Social Security Act, HCFA is allowed a $20
million tolerance in physician reimbursements to meet its goal of budget neutrality.




                                           24

                             APPENDIX                    A


                       HCPCS DEVELOPED AROUND CPT-4


The HCFA developed HCPCS to achieve uniformity in procedure coding. In the mid-
1970s, the Medicare and Medicaid programs were using multiple procedure coding
systems. After HCFA was formed in 1977, they established project teams to integrate
Medicare and Medicaid operations. At that time, there were a wide variety of medical
procedural terminology and coding systems (MPTCS) in use by Medicare Carriers,
State Medicaid agencies and their fiscal agents. The goal of one project team was to
develop one coding system to reimburse both hospital (Part A) and physician (Part B)
services. This effort was abandoned since Part A services were reimbursed on a cost
basis and Part B on a fee-for-sewice. The HCFA then shifted its focus to developing
separate systems.

The HCFA established the Medicare/Medicaid Integration Project, Number Two
Team (MMIP-2) to develop a common system to reimburse physician services. The
MMIP-2 determined that the lack of a common system made it difficult and costly for
Medicare/Medicaid payment and utilization data to be exchanged, merged, or
compared, complicated application of the Medicare Physician Economic Index as
procedural terminology systems change; presented severe problems to HCFA in
preparing timely, comparable data for Congressional testimony and inquiriey and (4)
impeded the development of integrated claims processing systems.

The MMIP-2 noted that implementation of uniform system would provide several
benefits. The benefits would permit the development of more effective fraud and
systems; lead to improve cost and utilization analysis; and facilitate greater uniformity
in Medicare and Medicaid program administration, quality standards, coverage and
reimbursement determinations.

The MMIP-2 established three goals for the new system. The codes should: (1)
identify physician actions clearly, (2) fulfill the needs of both physicians and third-party
payers, and (3) allow for continual maintenance and update.

The MMIP-2 studied three options. They could select CPT-4, another procedural
coding system, or develop a distinctive HCFA system. These other procedural coding
systems included the California Relative Value Studies (CRVS); the International
Classification of Diseases, Ninth Revision, Clinical Modification, Volume 3 (ICD-9-
CM); the Systemized Nomenclature of Medicine (SNOMED); and the Blue Shield
Association’s Coding and Nomenclature Manual.

During 1978, assessments of the alternatives were performed by HCFA and a HCFA
contractor. They used CPT-4 as the focal point for examining other systems. Those
studies, particularly the one done at South Carolina Blue Shield, determined that


                                            A-1
conversion to CPT-4 would not adversely affect reimbursements. Therefore, in
January 1979, MMIP-2 recommended that CPT-4 be chosen as the basis for
developing the HCPCS system.

In February 1983, the AMA agreed to let HCFA use its CPT-4 system as part of
HCPCS. After signing the agreement with the ~           HCFA mandated the use of
HCPCS. By October 1986, HCFA required State Medicaid agencies to use HCPCS.
Beginning July 1, 1987, section 9343(g) of the Omnibus Budget Reconciliation Act
(OBRA) of 1986 required hospitals to use HCPCS to reimburse outpatient services.
The OBRA 1986 mandated the use of HCPCS in hospital outpatient settings for the
following services: July 1, 1987- surge~, October 1988- radiology services; October
 1989- o~her non-radiolo~ diagnosti~se-fices; October 16, 1991- all other services not
previously specified except for supplies, drugs (other than drugs used for cancer
chemotherapy, ambulance services, and end-stage renal disease (ESRD) services.

Figure 1. CPT-4 Milestones




                                CPT MILESTONES

  1966                      1973                   1933-1934          1991-1992
  Medicare bqim.            Tlm3rdaditioa          ‘meIK!FA           MedicnrepaysW
  The AMA                   oftlw CPTb             fhllblmwlwtl       ~forwr=
  pubuskthelat              ~­
  editilmof the             m0dKkr8m               HCFCS;curim        CPT4.~   F=
  CPT- 3@4                                         ilq@lto            s&d&&lhO&=d
  -1
                   I   [-                          -1[




                                            A-2



                                                                                      ——...—
                       APPENDIX                            B



                                    1-codm-



           ~the        1-




         7’5
           wrn R_
           1-Him
           Ofcollectcdm

           Issmmmia


                            r

                            I

                                  __—
                                           :-----l+!!!?+
                                           I

                                           I



                                        — -1
                                                            q##dty       Advism




                            I

                            I


                            I

                            I

                            I

                             I


                             I


                             I

                             I

                             I

                              I





                                  ‘L.
                                   –––--J                       I
                                                                I             ~!
                                                                \
                                                                I
                                                                              Ei5~ -!
                                                                    1-   ——-—
                                                                           ——
     __   ——— —




* Reprinted from the American Medical Association’s CPT Assistant



                                                                                                ———
                                APPENDIX               C


                                    DATA SOURCES

Gov~Ag&

U.S. Department of Health and Human Services, Office of the Secretary,
 Office of Inspector General
U.S. Department ofHealth and Human Services, Health Care Financing
 Administration
U.S. Congress, General Accounting Office, Human Resources Division
U.S. Congress, Physician Payment Review Commission

M&are      Ckmiem

Aetna Life Insurance Company - Arizona

Aetna Life Insurance Company - Hawaii

Aetna Life Insurance Company - Oregon

Blue Cross and Blue Shield of Iowa - Iowa

Blue Cross and Blue Shield of Kansas, Inc. - Kansas

Blue Cross and Blue Shield of Maryland - Maryland

Blue Cross and Blue Shield of North Dakota - Wyoming

Blue Cross and Blue Shield of Rhode Island - Rhode Island

Blue Cross and Blue Shield of South Carolina - South Carolina

Empire Blue Cross and Blue Shield - New York

Blue Shield of California - California

Pennsylvania Blue Shield - District of Columbia/Delaware/New Jersey


Hwlth (kre i%ade Group

The   American Hospital Association

The   American Medical Association

The   Blue Cross and Blue Shield Association

The   Health Insurance Association of America

The   Health Information Management Association


M&al     S’ily      Socieiies

American    Academy    of   Allergy and Immunology (#) (ACAC)

American    Academy    of   Dermatology (#) (ACAC)

American    Academy    of   Family Physicians (x) (ACAC)

American    Academy    of   Neurology (#) (ACAC)

American    Academy    of   Ophthalmology (#) (ACAC)

American    Academy    of   Orthopedic Surgeons (#) (ACAC)

American    Academy    of   Otolaryngology - Head and Neck Surgery (#) (ACAC)



                                            c-1

                                                                          —.
American Academy of Pediatrics (#) (ACAC)
American Academy of Periodontology (&)
American Academy of Physical Medicine and Rehabilitation (#) (ACAC)
American Academy of Physician Assistants (&) (HCPAC)
American Association of Neurological Surgeons (#) (ACAC)
American Association of Oral and Maxillofacial Surgery (&)
American Chiropractic Association (&)
American College of Cardiology (*) (ACAC)
American College of Chest Physicians (*) (ACAC)
American College of Clinical Pathologists (#) (ACAC)
American College of Emergency Physicians (#) (ACAC)
American College of Gastroenterology (*) (ACAC)
American College of Obstetricians and Gynecologists (#) (ACAC)
American College of Physicians (#) (ACAC)
American College of Preventative Medicine (#) (ACAC)
American College of Radiology (#) (ACAC)
American College of Surgeons (#) (ACAC)
American Nurses Association (&) (HCPAC)
American Occupational Therapy Association (&) (HCPAC)
American Optometric Association (&) (HCPAC)
American Osteopathic Association (&) (ACAC)
American Physical Therapy Association (&) (HCPAC)
American Podiatric Medical Association (&) (HCPAC)
American Psychiatric Association (#) (ACAC)
American Psychological Association (&) (HCPAC)
American Society of Anesthesiologists (#) (ACAC)
American Society of Clinical Oncology (*) (ACAC)
American Society of Colon and Rectal Surgeons (#) (ACAC)
American Society of Internal Medicine (*) (ACAC)
American Speech-Lmguage-Hearing      Association (&) (HCPAC)
American Urological Association (#) (ACAC)
National Association of Social Workers (&) (HCPAC)
Society of Thoracic Surgeons (#) (ACAC)
The Society of Nuclear Medicine (#) (ACAC)

I&

#            Members of the Council of Medical Specialty Societies (23)
&            Limited-Licensed Physicians (13)
*            Internal Medicine and Its Major Subspecialties (5)

ACAC         AMA CPT Advisory Committee Members

HCPAC        Health Care Professionals Advisory Committee for CPT





                                       c-2
                             APPENDIX                          D


                     SUMMARY OF OIG REPORTS ON CPT-4


                  Report Title                                 CPT-4 Section                  Annual
                                                                                              Effect




Medicare Physician Consultation Sewices              Evaluation and Management                $73.OM
0402-88-00650, June 1988
Corona~ Artety Bypass Grafi Swgery                   Surgery                                  $5.OM
OAI-09-86-00070, August 1987
Pocket Dopplers                                      Medicine                                 $6.OM
OEI-03-91-00461, June 1991
Zero Crossers                                        Medicine                                 $16.7M
OEI-03-91-00460, August 1991                     I                                        I



Review of Multichannel Laboratory Claims
             Pathology and Laboratov                  $0.9M
Processed by Empire Blue Cross/Blue Shield
                                                   ($2.6M/
Under Title XVII of the Social Security Act
                                                  3 years)
4-02-85-02030, March 1985

A-02-86-02013, June 1986

A-02-87-01026, September 1987

A-02-88-01001, October 1988

Review of Radiolo~ Services Paid by Empire
           Radiology                                $1.3M
Blue Cross/Blue Shield Under Tit~eXVII of

the Social Security Act

A-02-86-02022, April 1987


Manipulation of Procedure Codes by
                   All Sections                            $12.2M
Physicians to Maximize Medicare and

Medicaid Reimbursements: A Management

Adviso~ Repoti

A-03-91-00019, August 1991





                                               D-1



                                                                                ____..—
                                                                                   —                     ——.
D-2


      —.-   ——
  APPENDIX        E

COMMENTS ON DRAFT REPORT




           E-1
.*.+
   ­ ,*
          ~,.vn.-
                    ,-.<                                                                      HealthCare


  Jf
                           DEPARTMENTOF HEALTH& HUMAN SERVICES                                Financing Administration
5

‘:
 -0

  7

  -%
     ++.w                                                                                     Memorandum
            Date           ?4AR81994
            From
                           Bruce C. Vladec          .&L<
                           Administrator    ‘
                                           ~
            Subject
                           office of Inspector General (OIG) Draft Repo~  “Cag     ‘f ‘h~iti_se.Mw%n
                           (OEI-03-91-O0920), and “A Compendium of ‘Reports and Literature on C-g    of
            To
                           Physician Service%” (OEI-03-91-00921)
             .        .
                           .June Gibbs Brown
                           Inspector General


                           We reviewed the above-referenced draft reports which raise concerns about     ~tig

                           practices and their irnpaet orI Medicare policy objectives.

                           We concur with the seeond and fourth recommendations contained in tie re~rt
                           and are considering the first and third. Our detailed comrnenfi on the report
                           findings and recommendations are attached for your consideration.

                           Thank you for the opportunity to review and cornrnent on these draft reports.
                           please advise us if you would like to discuss our position on the remnmendations
                           at your earliest convenience.

                           Attachments



                           m
                           xi%
                           IXG%A8
                           nmal
                           a=y
                           DATE 8ENT
          comments on Office of Insuector General (OIG) Draft ReDorfi:
            “Codin~ofPhwicianS etices,’’( OEI-O3-9l-OO920]. and”A
          Com~endium of Reuorts and Literature on Coding of Phvsician
                                   Services.”
                               (OEI-03-91-00921)


Recommendation     1

The Health Care Financing Administration (HCFA) should produce and
promulgate to the American Medical Association (AMA) and medical specialty
societies clear coding objectives and criteria for Medicare’s resource-based payment
system and encourage them to apply the objectives in the development of new or
revised codes.

HCFA Response

We are considering developing a policy statement delineating clear c-g

objectives and criteria for Medicare’s resource-based payment -m       ad ~fo~~g

the AMA Current Procedural Terminology (CPT) co~ittee          of our priorities. We

pian to evaluate whether the issuance of a general set of coding objecti= would

improve coding accuracy.


Recommendation     2

HCFA should apply its coding objectives and criteria when ev~uating new or
revised codes to assure compliance ~th the needs of fie Med&re Fee Schedule.

HCFA Resuonse

We concur. We agree that improvements ~n be made in the coding process.
However, to give the report greater balance, we suggest hat oI~ include in the
final report a description of the imprmemen~ ~ tie ~~g         -m       iII which HCFA
has had a major role+ and the policies hat HCFA h= ~~ed            tO guard against
coding changes leading to greater expendi~r~        ~ pticulaq   OIG should ck
HCFAS role in the major improvements retie ~ ev~uation ~d management
physician visit codes in 1992 such as the creation of add.ition~ more p=~         ad
descriptive codes to distinguish among various levels of p@i&n       visits. HCFA
developed several clinical exampks for ~ch sp~~ty ~ q~              the ux of the new
codes. Despite some continuing ei~ents      of ~fision    ~ong    physicians about the
codes these changes have led to gr~~r u~ormity ~ tie U= ~ visit c.otk



                                                                        ,’
Page 2

In addition, HCFA has established several methods to guard against coding changes
leading to the circumvention of the relative value scale and escalation of
expenditures. Some of the steps that OIG urges HCFA to take to establish more
effective methods of assigning re~ative vaiue units (RVUS) for new and revised
codes were announced by HCFA in a notice of proposed rulemtig          (NPRM)
published on July 14, 1993, a copy of which is attached. We would like OIG to
mention these efforts in order to provide a Context and accurate representation of
HCFA’S efforts in improving coding of medical seMces.

The NPRM describes our concerns about tie escalation of new and revised codes
as well as our intentions regarding assignment of RVIJs to these cases if we could
not readily ensure budget neutrality. We have held extensive discussions with the
AMA on other changes that would be desirable in the CPT process. For e=mp~e,
the AMA is going to close the CPT prtiss 2 months earlier beginning with the
1995 CPT, which will allow HCFA to review tie coding changes and the proposed
RVU values in a more deliberative manner. ~,          the AMA is going to require all
specialty societies to identify the coding changes that are pianned and their relative
priority for the next 4 or 5 years. This would allow the AMA to put more

discipline in the CPT process and would a]]ow HcF& ~rough its representative on

the CPT editorial board, to influence the scheduling of coding changes.

Recommendation     3

HCFA should work with the AMA, Medicare earners, medical specialty societies
and other related parties to develop a mechanism hat assures a unified and
consistent dissemination of guidelines on how to use and interpret codes.

HCFA Response

we agree there is a need for greater HCFA guid~ce to physicians on how to use
and interpret new codes particularly for cod= qected   to be high volume and
where the definition is not precise. H~ever, we ~e not prepared at this time to
commit to a specific set of actions and wouid we to ~sider   M issue further.

We note that our effort to communicate he intqxetation         of the new evaluation
and management codes mentioned above, which was the most s@ifkant set of
changes in several yea~ was highly SUUXXSfU1.HCFA participated in and led
several educational effor@ such as having fie ~e~         send out Spedal publications
on the use of the new cods speciai semisl~ and tio~ation            in the carrier
newsletters that are distributed to every physician ~ fie ~un~.        b addition, we
have worked extensively with C.arnermedical d~ecto~ to iden~ ~~              of continued
confusion and developed recommendations      for clarification and guidance on
documentation to be used by he AMA/cm          and ul~a~ly      to be u~d to distribute
Page 3

to physicians and carriers to improve the consistency in the use of these codes. We
have worked close]y with AMA who has distributed our recommendations to
specialty societies on two occasions. We (HCFA and AMA) are currentiy in the
pr~ess of preparing recommendations for the CPT panel to consider for revisions
of the CPT definitions. We will consider these types of efforts for communicating
the correct use and interpretation of new codes.

Recommendation     4

HCFA should evaluate the current process forimplementing changes to the
Medicare Fee Schedule. This includes (1) developing an effective process for
establishing work values for new or revised codes, (2) communimting to the AIvI.A
the number of annual additions, deletions, and revisions to CPT-4 that HCFA could
effectively review, and (3) delaying implementation of new or revised code% except
for new technologies, until reliable data are available to predict service utilization.

HCFA Resuonse

We concur, and have made the recommended changes:

      1. We developed an effective process for establishing work values for new and
revised codes that preserves budget neutrality, protects primary care, and is fair and
equitable to all concerned.

      2. With the tighter deadline for making CpT changes and the establishment
of a long-term coding workplan, HCFA’S ability to review established RWS for
new and revised codes will be greatly enhanced.

       3. If reliable data are not available to predict sex-vice utilization needed to
pr=we      budget neutrality, we will delay implementation of new or revised c~es,
except for new technologies, until reliable data are available to predict service
utilization. See page 37997 of the July 13 NPRM.

Technicai Comments

OIG attributes the entire $450 million in expenditures resulting horn the 1992 RW
refinement process to new and revised codes. Actually, only a small fraction of
these dollars was attributable to coding changes. The bulk was due to changes
made to values of existing codes. The year 1993 was atypical since the values
assigned to all codes in 1992 were considered ‘finterim” and subject to cornmenw.
Numerous changes were made in response to comments requiring the $4S0 million
adjustments. For 1994, oniy a 0.1 percent adjustment to all RWS (about $30
million) was needed to maintain budget neutrality due to the establishment of new
or revised codes.
Page 4

The next to last paragraph on page 9 of the report states:

         “Neither the OIG nor HCFA has evaluated the effectiveness of
         the [Comect Coding Initiative]. However, we are aware that
         some insurance companies U= a far     greater
                                                   number of edits than
         HCFA to detect improper coding practices in their non-
         Medicare claims.”

While it is true that HCFA has fewer edi~ ~an -e         private cornpti~     HCFA
also allows its carriers to use local edi~ which existed prior to l=     tius ~~e~g
the overall number of edits. ~ addition, whfle HCFA Wmently uses edits ody for
                                        wor~g
high dollar, high frequency sexvice~ we me   wifi
                                               OIGto                 develop a Request
for Proposal to develop edits on an  OngCiirlg
                                        basis       for use by carrier systems. We
wouid like these points to be added to tie paragraph to provide an accurate context
for describing the number of edits HCFA uses

In addition, the report does not recognize the complexity of developing rebun~g
edits in the context of the fee schedule. We need to e~re      fiat the proposed
rebundling edits reflect the interpretation of codes by different physi-     ~clu~g
physicians in different specialties. Aso, with the advent of a fee schedule which
links a definition of the work for each code, Medicare must carefiuy be          me
combinations of codes being proposed for rebun~g.         HCFA must take tit(.)
consideration the se~ices being     pr~ided under his cm de       and determine what
services were included in the code when the relative work value was assigned. ~
the semices considered part of the code changed through rebundling, the work
value of the individual code, and c~es ~~~       tie f~i~y, must be reassessed for
consistency.

ln the exit conference on this inspection, OIG ill~mted it would discuss in its
report the fact that I-ICFA does not bl~dly a~pt r~~erdations         from the
AMA’s Relative Value Update Committee (RWJC). HCFA a~ndees poin~d out
in the exit conference that HCFA rejected 35 percent of the RWC’S
recommendations last year. We beheve fi~ ~~ ~ould be ~Wd             on page 13 of
the report to represent what actually occurred.

Statements citing findings of previous OIG stu&s should indicate that dollar
amounts of overpayments are estimates. F~c@s mat Me&care overpaid specific
doliar amounts due to cxxitig problems ~e b-on         ~ple    &@ and are estimates
who= correspondence Mfi tie a~~           ~e~mcnt     ~ depend on tie quality of
sample selection, sampling variability, and other technical factors. TO XCUra*lY
COnveythe uncertainty that a~panies         ~ch ~~men~      wc suggest using the te~
“estimated” liberally for citations of previous OIG findings. On page 5 of tie




                                                                 ——               ————
Page 5

repo~ for example, the fifth sentence from the bottom would read, this lack of
clarity resulted in esttialed overpayments of $73 miilion per year nationwide.”
several other instances occur in the report and in the companion report.

The reference to su~ey responses from “providers” on pages 7 and 8 is unciear
because in the methodology description (pages 2-3), 110 providers are mentioned as
respondents. The methodology section describes the respondents as medkai
specialty societies Medicare carriers, the ~       and other organizations. h
common usage, such entities are not providers per se; rather, providers refer to
individual deliverers of medical care. It is unclear, for example, which entities on
OIG’S list of respondents “expressed satisfaction with the current system addressing
coding issues . . .“ (page 8).
. American MedicalAssociation
 Physicians
         dedicated
                 totheIIeallhorAmerica

 James S.Todd,~            515Northstatesweet      312464-5000
 Executive
         \’ioe President   ChicasO,
                                 Illinois
                                        80610      3124$4-4184
                                                            Fax




 October & 1993

  Bryan B. Mitchell

  Principal Deputy Inspector General

  ~epartrnent of Health & Human Services

  Wfice of Iaspector General

  Washington, DC 20201


  DCWMr. Mitchell:


  Th- you for allowing the American Me&aJ Association(AMA) the opportunity to munent On
  your draft report “Coding of Physicians’ Services”. I appreciate your kind comments on the
  coop~uoII you have received from the AMA staff in development of this draft. T’houghout the
  research and analysis process we have, in turn, been impressed by the objectiveness of the projeet
  staff and their obvious dedication to providing the best report possible-

  Whi!e the stated objective of your report is w describe the “vulnerabilities in the maintenance, USe
  and management of CPT as they rchte to Medicarereimbursement”, it seems that we share the
  same ultimate goal— thti of making certain that the Physician’ Current Procedural Terminology
  (~     is at a sufficientlevel of ciarity, accuracy,and professionalacceptanceto a!lowthe H~ti
  Care FinancingAdministration(XT-A) to effectively and efficiently administer the Mdicxe
  proe$y%lrn.

  The CPT system is of extreme importance to physicians. It alJows physi~~ to rePofi the
  services they provide in terms that are clinically meaningful to them. Accordingly, tie Am ~
  dedicated to supporting and improving CPT and weicomes constructive criticism from S@ source
  including, of course, that of the OffIce of the Inspector General (OIG). It is in that spirit fi~ we
  have reviewed your draft report and in which our COmrmxtsOn your report are offered. TOthe
  degree that there are, in fq “vulnerabiiities” in the C!PTmaintenance system, the AMA
  appr=k~ i-g          of those, and you may be assured that we plan to take every step possible to
  address them.

  Few would dispute the notion that the adoption of CPT by Medicare in 1983 has provided a tool
  to dlow  13CFAto bring urqmecedenteduniformity ~d ~n~l to the Medicare Part B pro~-
  Md for the fwst time since the prom’s       ~~plion in lg&5, cn hx provided the federd
  IZOV-ent     with the ability to implement, monitor and evahmte national payment policies. We
  %TWwith your obsenation th~ with the impkmentation of the Physician Paymmt Reform on’
  JmWXY1, 1992, the CPT system has taken on increased importance. We believe that, while
  continuing impmvaents are needed, tie r~atiom~ip ~~ A,MAh= established with HCFA
  Conccmingthe C.PTsystem, its modifications and relative value updating, was critical in e~ling
  that new system to be implemented witi a very high level of operational efficiency. This
  relationship is, in our view, an excellent example of tie we of publi~private partnerships th~
  will be so critical as we move toward a reformed health care system.
Bryan IL Mitchell
Page 2


With one exception that will be discussed, we fmd your recmnrneodatiom to AMA to be fiiir ti
reasonable. Several of the activitiesyou suggestarc, in fa~ already underway. Our major
concern rehtes to the seaions of your draft report which cite nurnemus alleged flaws in the CPT
system. While we would be the first to point out that cPT is not perf~ we are concerned that
your listing of thmc examples (most of which have b= id~fi~         ad ~rr~~      ~“@ ‘i=
-g        (51 maintenance-prooessj  may create a distorted perception of the usefulness of CPT to
Medicare.

Bssed on the organization of your repo~ our comments are grouped into four sections:

�
        background;
�       methodology;

�       findings; and
�
        recommendations.

BACKGROUND

We offer a few tinor sugg@Ons for your ba&~~d             SeaiOn mat  we believe would Stre~@en
your report overalL Fir% we wouid recommend that your report include a more precise definition
Of ~.      As noted in the CPI publication ~ Wpyri@ted by the AMA, “CYI’is a systemtiC
listing of descriptive terms and ideutifyiig codes fbr reporting medicd se#ices md procedures
performed by physicians.’” me descriptor is the key to each code, not the code number itwdf.

Next, the statement concerning hospital use of HCPCS is somewhat misleading. J4a~lY,
hospitals use only Level 1 of HCPCS (CP’T). Thii Medic=e pm-       fimi~on ~ ~atd
hospitals in coding outp~tien~s~ic~, ~ hospi~ frqu~~y provide servi~ that might be more
accurately reported using Level 2 of WF’CS (e.g., dental SCMCCS)yet they m ~rr~rlY
prohibited from doing so by HCFA.

‘lWd, there is an inaccuracy in the statement on modifiers, as referred to in endnot~5. S~~Y
speaking, “QI” is not a CPT modifier, but one that has been established by IICFA on a ~Por$rY
basis. And lastly, there is a ~ographicsi error on page 2, ‘“TheRVU is divided into wee
categories physician (not physical) work, practice expense...”.

METHODOLOGY

‘Ile OIG’Smethods redyprimarily on two sources of information: literature review (~d o*~
published documents); and personal interview. We understand that these methods wcm relid on
due to resource constraints witiin tie OIG. ~ile both these sources have merits and are=
important part of any investigation, we have concerns about the degree to which they CUIbe
Bryan B. Mitchell
Page 3


rtdied upon exclusivelyto produce definitive results. We strongly believe that the methodology
Used has SeriOUS htitations.

First, we note hat the lit~rure hat was ~cover~       d~~g     your e.xhaus$ive computerized SeSrch*
W= scarce ~d, ~ gm~, IIOtfound in pub]i~o~ ~m have tie high st~~ds                    of peer review.
Accordingly, we believe that information garnered  tiIX    the  literature mUSK be viewed somewhat
skepticallyandis not well suited, in our view, to generalization.

Second, in light of the scarcity of reliable literature, a great deal of ~phasis was placed on the
structured inteaviewprocess. While an effort was clearly made to interview a wide sP~m           of
phy$icins, ooding experts and claims processors, we question the degree to which it is possible ti
conduct such interviewswithoutinjectingimportant selection, pre-existing opinion9~ -g
biases into the process. For example:

*       It is widely recognized that many so-calkd @iig Uperts (e.g,, COnmkantS,software
        mmpank$ profit by perpetuating a perception that ~        is ove.r+ompli~ed and vague.
        $imikdy it is to their advantage to overstate the degree of unbundling and upending that
        exists so that they might be engaged to correctthe situation. Accordingly, we b~ieve
        “findings” such as those listed on page 4 cannot safeiy be concluded to be valid.
�	
        You soiicited the views of medical record coders, 23 individuals, 19 of whom were
        recommended by the American Health Information Management Association (AHIMA).
        AS I am sure you are aware,AHIMA has formal policy positions in opposition to the
        continued usage of CPT in, at leas~ some patient setrings. WC seriously qwstion the
        degree to which such a group of interviewees, even wi& the best intentions, could present
        a truly balanced view of the merirs of CPT.

�       Most of the work was done during the fall of 1992, a period in which there exis@
        uemendOuSfhstration and resentment among some physicians (and the national medic~
        specialty societies) for policy decisions made by 13cl?A in implementing the RBRVS
        $X4X% IZ’WtIK@ly the unjustifiably low conversion factor and some components of the
        GPCIS. Because of this, some physicians and or&izations were unhappy wfi eve~~g
        tkaiing with Medkare payments, coding included. some, in fitq blamed the ~          wd~
        for the payments that were far lower rhan believed appropriate. ~us any study condutied
        during this period, particutariy one based so heavily on interviews, would certatiy
        develop a much more negative view of CPT, than would the same study if it w=e being
        conducted today.

In sum, we believe there are important limi~iom in tie me~odology of your study. While we
recognize that practiodities may have di~ted your appro@, we ~SO believe those IirnitatiOnS
should be acknowledged and taken into account when making drawing conclusions or ~ *ng
recommendations.
      Bryan B. Mitchell
      Page 4




      I%st, your study concludes thaI “inmrrect ding affects lvledicare reimbursement”. WCdo nOt
      dispute this as surety some incorrecxcoding wes places and this may impaa Medkare payments.
      Your study seems to sugg~t, however, titi in~~e~ coding is inherently a fault of the CPT
      system and that when inmrrect Wdbg oars ~        it on]y ]UI& to Medicare overpayments. We
      suspect that where in~rr~ ~d~g do= oc~t, ~~e may be m~@]e -es                many Ofwhich are
. .   totally remov~ fiom tie ati     ~d~g syst~o ~ ~ditio~ We JCIIOWof no studies th~ have
      ~ught to quantify “undxing”       (~~ough we h~e sipifi~t      w~otaJ    evidence of such) ~d in
      the dmxme of these d- it k not possible to a~@y         SSSeSSthe overall impaa of md~g
      accuracy on Medicarepayments.

      On the point of ding accumcy your study ~SOimP]i~ thti tie C.PT error rate is high 00U cite
      SSmuch ss 15 or ]7 p~c@, but thk is not put in ~propriate context or compared with Other
      reporting mechanisms. A 1992 arrkle in the Journal of the American Medical Association
      (JAMA), for example, reports on a study of hospital medical reccwdcoding and conoludes that
      hospital rcpotig error rate (that ~, MTOmwx we~ large enough to cause a change in 13RG
      assignment) “dropped” tO 15p-        ~ 19gs from ~mo~ 2 I percent in 198S. In-patient hospital
      coding is generally done by trained medical r~rds pmf~iotlals using the ICD-9-C14 system and
      tht? end date of the study (198g) w= ~ f@ five y-   tier he ~R(3  system went into effect. The
      Wdyfurdler     concluded th~ mtion~ly, ~~e hospi~ rqo~ng errors did not result in significant
      overreimbursetnent.

      similarly, your extrapolation hat b~twe~ $1 ad $6 billion in M~i~e claims may have b­

      @eCtd by improper coding is ex~me]y susp~t. ~e ]i~ramr~ U@ to make these assumptions

      is not @rrent, does not address the issue of potential ‘undercoding’, and the “studies” refer to so

      many different phenomena (e.g., m~ic~lY UmUSaX-y semices, undocumented services =d

      gene~ @ding errors) that it is impossible, with the limited information available, to atzribute ~Y

      Pr@ise dollar figure with coding errors. And   again, coding errors, in and of thems4ves, do not

      direcdy imply structural problems with a coding system.


      A second finding leads you to ~nc]ude vat “flaws ~ @’r cods, @elhes and index can led

      tO improper coding”, and provide seve~ i[lustra~ons$ Here again we do not argue with the

      possibility that this can occur and are always seeking ways to improve the guidelines, ~dex etc.

      But we do not believe your illustrafio~ we ne~sfiy      indi~tive of tie alleged pmbl~    yOU

      identi~ and are, in most CSSaS,no longer appli~ble. we offer co~ents on each ar~ YOU

      identi~.


      Ambiguous code definitions”


      we agr~ thaq prior to 1992, providers did not uniformly code levels of semices for ofilce vkits,

      Wnsuhations and other evaluation and management senices. It is for preeisely that reason *Z

      the AMA invested over three y= of res~ch ~d s~dy in the r~isio~ of the Evaluation md

      Management codes. These ~ding re~kio~ were b~ed On empirical data provided by the

      H~~d University t-      that dev~op~ we ~RVS me~~o]ogy<          R~u]~g c~es were subject

      tO extensive comment by phWici~, payers ~d otier groups and were the subject of extt?SSiVe

Bryan B. Mitchell
Page 5


pilot testing and training programs by the AMA, HCFA and others. Only now is limamre
beginning to appear that discusses these new codes. Reli@cc on outdated information to
demonstrate ‘flaws” in the system can lead to an inaccurate view of CPT as it is used CUXTCMJY.
We concur that there may be some confusion c~n~~g        the use of “arthroplasty” procedures Of
the toe. We will pursue the development of this issue and address it either through the CPT
Editorial Panei or by publishing clarification in CFT AssLstmW

ne issue of laboratory “panels” has also already been addressed. In CPT 1993, the Editori~
Panei eliminated the majority of disease or organ panels. The ones that reb    ~ sptificaljY
defined as to the components that Me inc~ud~. Fu~er, we have pu~lished educational materiak
in the C~t,           pertairdng to the correct use Ofthese codes. (Copy attached)


Multiple codes thnt define essentially the same procedure

Again, the information in this report does not reflect current coding. In ~     ~    witi tie
extensive assistance of the ~oilege of American pathologists, the Editorial Panel began the =k Of
eliminating outmoded and duplicadve codes from the laboratory section. In ~= ~,          whi~
will be avaiiable later this month, this task will have largely been compieted.

Coronary Artery Bypass grafts have also been addressed by the Editorial Panel. The Walesfound
in the current CPT reflect the techniques being performed. We were surprised to 1- tia tie
OIG had previously “suggested that the AMA modi~ Waling for CAB(3” as we werb not provided
with a copy of that repo~ nor had we been made aware that the issue was being pUrSUed. ne
Witoriai  Pad adopted the existing codes (not the ones referred to in your drti report) only aft~
empirical demonstration that the pmcedur~ iIWOived signific~~y diff~ent amounts of physician
work, while the report your cite relies on surg~n intcmie~s prior to RBRI?S. Further, it k our
understanding that adoption of th~e new ~des by HCFA will not r~uit in my additional HC!FA
expenditure for CABG. Thus, we sw no j~tification for your ~nclusion that a reductioxiin the
number of cod= wouldhave saved S5 million annually.

Endoscopic and arthroscopic procedures represent a speciai challenge to coding. B-use of tie
large number of procedures that can be performed during one operative session Ushlg ~
endoscope, it is particularly difficult to develop ~ appropriate number of d~~iptors without
compromising data quality. CPT 1994 contains a new section on sinus endoscopy ad tie
Editorial Panel wiil continue to work on this issue in future years.

Codes that cnver an array of significantly different levels of service

ne isSU= liSted as “problems” in this section have all been resolved. For example, the cod= for
dia~ostic vascuhr teting have been signifi~[]y revked and “pocket dopp~er” procedures have
specifically been deleted from CPT.
Ekyan B. Mitcbel[




while we CQncur that the time required to ptiorm a supmtent,orial craniotomy may vary, the USC
of the type of lesion being operated on is, ~ a clinical sense, a better proxy forthe amount of
physicisn time and intensi~. It is not appropriate fix a clinical coding system to mtew~
Operationson the basis of time spent, ss time can be impti        by many fictors (e.g., training and
skill of the physician, availability of assistants, individual we severity, hospital sehedulirtg)that
arc not directly associated wi~ the typic~ physici~ work iIIVOfVed.        me ~de  should represent a
clinical description of the operation, not the tiie it takes to perform it.

Problems in CPT-4 guidelin~ and index alSO contt%buteto incorrect coding

The Pmel has been working for SWerSI yems to S~mtiCZIIy        replace x)jeotives that may have
multiple meanings such as “superficial” and “deep’. There are sections of CPT, howev=, ~@
as the muscle groups, where such terms have specific clinical meaning and should appfOpri~elY
remain.

Concerning the guidelines on hospital OU~atients~iw,       ~ 19w the usc of @I’ was mandated
by Congress for hospiti outpatient use, ~~e tie ~i~ri~ PSJWIwas not asked for its views
concerning the applicability of CPT m his e~imnm~~ the Panel h= responded positively ~d
quickly to issues that have been presented to i%including the publication of the hospa ou~atient
version of CP’I’. In this volume, wc ~~ude specific H~A ~id~ines for CPT use by hosptis.
~Owever, our ability to help H@A ~mit         his ~Orm~On h= b~n ~pcred            by a ]ack Of
cooperation by the hosp,iudcoding uea within HCFA. Contributing to the difficulties that
hospitals experience are the HCFA reporting guiddines themselves. For e%=pie, ~~A
guidelines do not permit hospitals to report modifkrs, yet modifiers are an integral Pm of tie
CPT system.

YOU are alSOaware tiat the Ameri~     HospiK~ Association (voting member) ~d Ameriean HWh
Information Management Association (non-vo[~g) have had repres~~tion      on ~C Edkdd    P~el
for several years. The purpose of tie inclusion of th~e gTO~pS WS.Sto sp~ific~ly seine the needs
Ofthe hospital users of CPT.

Some respondents have ~ti&~          the pro(& hat AMA W= to ~nsid~             ~ges,     addltion$ ~d
deketionsin.CPT

The CPT’15ditoriaIPanel prOCeSSh= be~ significutiy revis~ to ZHOW for a fbll range Of
CO~~tS from groups seeking, ~d ~ose ~X tight be aff~ted by, ~ding ~~g~.                    A specific
ZPPCZIS process has been instituted to allow for further exchange of information. All pmicipat~g
organizations have the opportunity to pr~ent fiomatlon      in writing or in person to the Editorial
pSneL We are also aware that HCFA Cmier Medical nir~rs               provide hput to their HCFA
representative prior to the ~i~ri~ p~~ m~gs.          we be]ieve our process is open, cielldmrate
ad that it contains sut%cient due process safeguards.   It iS our belief that many groups that
express dissatisfaction are those same groups ~~ have had l~ge code-spli~g         proposals tUrnd
down by the Panel in its continuing effofi to provide a pr~m b~~ce w @ing modification.
Bryan B. Mitchell
Page 7


While we cannot speak directly to many of your points concerning HCFA’S internal operations,
we would stro@y disagree with yOUrfindings on page 13 that “HCFA has not developed 211
efficient or ef%etiveprocess for establishing RVU’Sfor new or revised codes”. Your observation
that the process for ~signing RWS is still evolving is correct, but it is important to also note that
many of the improvementsmade in the evoiution of this process have been made in direct
response to ecmstructivesuggestions Or concerns expressed by HCFA ~d PPRC. AMA ~d
HCFA staff have deveIopedpositive and productive working relationships and worked closeiy
together to develop new pmc~ures for gathering anti repofig information on new and revised
COd@. AS a resuk, the C-ier M~i~ ~ir~~rs ~nsidm~ fie ~uc recommendations for the
 1994 RVS to be Wmiderab]y befier thm the first set, with one reviewer stating they were “a
thousand times better.’ Likewise, HCFA has made substantial efforts w allow for more pubiic
ov~ight of this process. In a Proposed Rule published July 14 in the Fedeml Reuistet, HCFA
outlined its plans for RVS refinemen~ for 1994 and lW5 and provid~ a boday period for public
Comment.

L=tly, we would disagree witi your finding Mat a “pr@iferation of CPT changes wiIl undermine
HCFA’S abiIity to contain expenditures under the Medicare Fee scheduie”. NOr~aLio~hiP h=
been”established between the number of CP’I’ mding changa and Medicare expenditures. Your
statement that RVUSfor codes that were new or r~js~ in 1992 would have increased Mediare
expenditures by $4S0 million is inaccurate. The expenditure increase to which you refer was due
tO HCFA’S 1992refinement process, which focused on the relative values assignw to 9xifiiW
codes ~d had nothing to do wi~ ChSIIgeSin ~’1’. ~e re]atio~bip between CPT coding ch=ges
and Medicare expenditure i5 a~~ly     quite comp[ex ad is m issue that the AMA, HCFA, md
RUC are continuing to explore.

The statements cited in your repo~ reg~ding tie typ~ of ch~ges being made in CPT are from a
~          Rule that is open to comment and which has been the subject of considerable discussion
within the medical community. We strongly disagree with the characterization of chagm. be~g
made by CPT as simply sp]i~ing a ]~ge numb- of individu~ ~des into two or more codes in ~
effort to circumvent the USUaInotice and comment process. The changes being made to cm Me
generalIy quite complex, Whole sections may be zevised and there may be many new cod~
added, many revisions, and a number of deletions within a section. In (Xhercases, entire sections
of CPT are deleted and a new section with new numbers and descriptors is created. HNA h=
itSe]facknowledged that it is often diftlcult to predict how the old section will “crOSSwdk”tOtie
new or revised section and hm mkti for tie CPT p~e]’s ~d tie RUC’S Msistance in this regard.



RECOMMENDATIONS

AS indicated above, wi~ one re]ative~y minor exception, we find most of your recmunendations
for AMA LObe appropriate and reasonable. We would, however, 1ike to make a few obsetwations
about each.
Bryan B. hfitchell
Page 8

                                                               .
Recommendation #1

We agree that cooperation fi n~~sa,ry and we most willing@ work witi HCFA to disseminate
itiormation OnHCFA program requiremen~ ~d on Wdhg ~d~in~ that are consistent with
those requirements. We wouid point OUGhowever, that the new CPT submission fiITIIS~ave,
inherent in them, an expanded set of coding obje@ves, several of which were provided bY
HCFA.

Recommendation #2

We will continue to purstte the issue of index refinement directly. We agreewith your previous
obsemation that coders’ perceptions of the CPT index may be influenced-by the iev~ Of-g
and experience they have squired Uing ~T or o&er mding systerns (@culariy ICD-9<M).
U h Ourhope that those Ot@ZStiOnSor ~ividu~ that have found problems with the currextt
hd= would time forward with specific sugg~otts ~r improvement nd bc willing to be pm of
the overail index enhancement process.

Recommendation #3

We agree with this recommendation concerning development of better mechanisms fOr t’rammis­
sion of national uniform Medicare @ding po]icies and are wiliiig to work with HCFA X
qpmpriate. To the degree that HCFA has established national uniform Me&are coding polici%
we would be pleased to enter those into our CPT Clearinghouse Data Base and infOrm Clfig­
house USerSof those policies as a way of supplementing HCFA’Seffo~. We would be mckt
willing for HCFA to publish its policies, on a reguiar basis, in the @ Assistant. With this
being accomplished, HCFA may wish to consider identification of the CPT As-       tas the
offlciai source of (XT coding information.

Recommendation #4

We agree with this rmmmendation ~ncerning the n~ for relative v~ue recommendations to be
accompanied by data on anticipated u~@ion and have ~r~dy taken steps to implement it.
However, we stress the fact that these Utilization fi~res Wj]] OIIJybe estixrMtes hat may need to
be revised based on actual program experience.

Recommendation #5

We believe that AMA and HCFA should work ~ge~~ to mwge md plan the changes to ~
on ~ annual and longer term basis. We have taken preliminary steps to accomplish this. We do
nOt believe that putting a “cap” ou tie numb~ Ofcm ch~:~     per y- ~ in the best interes~ of
the Medicare program, its beneficiaries, or of medicine, A “c@” artificially constrains improve­
ments in the coding system, many of which in fact, xe YYeededby HCFA to enable them to
implement Congressionally mandated changes in the physician payment system.
Bryan B. Mitchell
Page 9


It is our strong belief that the rc]ativel y ]~ge numbers Of ch~ges seen in (XT “mthe past twO
YWS represents needed adjustmentsto better define physicians services and to accomplish the
limdamental gO~Sof the OBRA ’89 pbysici~ pa~~t Ref@n md will not beoome a permanent
feature of the CPT maintenanceprocess.

with respect w your r~mmendarions     to HCFA, we wouid only like to comment on the i3St
demerit of your recommendation   #4 concerning delay in code implementation. AMA would
strong] y disagree with HCFA if hey sought to delay impi~en&tion of new codes pending their
obtaining “reliable data” on utilization. First, we wouid argue thatsuch a delay would be
it’ICOt&Wt with HCFA’SCongressional mandate to make payment for physicians’ seflices bxed
on (determined) resource costs. Next, as a practical matter it is impossible to collect definitive
ut~~o~ da~ U~CSSphysici~ have &e oppo~ni~ ~ repo~ tie code on the claim form, ~d
third, such a delay would ca~e great Wnfision ~ong physici~ who participate in private
health insurance programs where SUChnew codes would be accepted and implemented, Here
again, we beiieve that the best approach, with HCFA’Sinput, is to prcmctivelyrn=%e the number
Of ~ual coding changes and u[i]ize tie new CPT submission proc~s to provide the best possible
utilization estimates.

Thank  you again for the opportunity to provide comments on your draft report. We would be
hWpy to meet with your suff to review our commen~ if ~~ would be heipfu] in preparation Of
yOMfhal report. In the event that you choose to move directly to a fins) report, we would
appreciate your consideration of publishing our ~mmen~ ~ong with that final document.




James S. Todd, MD

JST:dcl
attachments




                                                              ——      -——
